AVIATION INDUSTRY PERFORMANCE
         Trends in Demand and Capacity,
          Aviation System Performance,
 Airline Finances, and Service to Small Airports

             Number: CC-2005-057
          Date Issued: June 30, 2005
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Aviation Industry Performance                                         Date:    June 30, 2005
  From:    Kenneth M. Mead                                                                 Reply to
                                                                                           Attn. of:   JA-50
           Inspector General
    To:    The Secretary
           Deputy Secretary
           Federal Aviation Administrator
           Assistant Secretary for Aviation
             and International Affairs


           Attached is the seventh in a series of periodic updates to our aviation industry
           performance report. The performance metrics were developed in 2002 as a
           mechanism for monitoring aviation industry trends including domestic demand
           and capacity, aviation system performance, airline finances, and air service in
           small communities.1 The point of reference or base year for most of the metrics is
           2000, when traffic and delays were at their peak. An attachment to this report
           includes three exhibits: Exhibit A, Summary of Aviation Industry Metrics, which
           contains detailed textual and graphic presentations of industry measures; Exhibit
           B, Scope and Methodology, which explains sources, analyses, and terms
           employed; and Exhibit C, which lists Office of Inspector General (OIG)
           contributors to the report.

           The following list highlights the most significant trends that have emerged since
           we issued our last report in August 2004.2 A more detailed discussion of these
           trends follows this summary.

               • Fuel Costs Continue to Escalate. Rising fuel costs continue to undermine
                 the financial improvement of network carriers and are also cutting into the low-

           1
               The performance metrics are based on data collected and processed by the Department of Transportation’s Bureau of
               Transportation Statistics, Office of Airline Information, and Federal Aviation Administration; and the Air Transport
               Association.
           2
               OIG Report Number CC-2004-085, “Airline Industry Metrics: Trends on Demand and Capacity, Aviation System
               Performance, Airline Finances, and Service to Small Airports,” August 10, 2004. OIG reports can be found on our
               website: www.oig.dot.gov.


           CC-2005-057
                                                                                    2


   cost carriers’ bottom lines. After several years of relatively stable unit costs,
   the cost per available seat mile (CASM) for low-cost carriers grew from
   7.61 cents in the first quarter of 2004 to 8.77 cents in the first quarter of 2005,
   an increase of 15 percent.
• Lower Airfares Prevail. Declining airfares contribute to financial difficulties
   of network carriers, although consumers have benefited from relatively
   inexpensive travel in many markets. Since 2000, average fares (including
   taxes and fees) for all carriers dropped between 6 and 14 percent, and network
   carriers have seen fares, net of taxes and fees, decline by about 20 percent.
• Congestion is Back. Delays have returned, exceeding 2000 levels in many
   markets during the first quarter of 2005. The average delay was 52.3 minutes
   and affected more than one quarter of all flights. Following a relatively calm
   April and May, preliminary June data indicates that travel disruptions may
   once again be returning this summer, including at Chicago-O’Hare where the
   Administration intervened in 2004 to curb growing delays. It is too soon to tell
   whether this is a short-term condition resulting from anomalous weather or if it
   is a more pervasive problem.
• Airports are at Risk for Summer Delays. Airports to watch this summer for
   congestion include Philadelphia, LaGuardia, Newark, Washington-Dulles,
   Atlanta, and Fort Lauderdale. All had some or all of the following factors:
   significant delays last summer, substantial projected traffic growth this
   summer, and consistently elevated delay rates sustained over the past year or
   longer. A second tier to watch includes New York-JFK, Boston, and Chicago-
   O’Hare. These airports have had high rates of delay in the past and
   experienced high rates of delays through the first 2 weeks of the summer travel
   season.
• Service Lags in Small Communities. Traffic has rebounded in all but the
   Nation’s smallest communities. These communities depend on connections
   through network hubs—whether small, medium, or large—for mobility
   throughout the country. Compared to July 2000 levels, scheduled flights in
   July 2005 are still down by more than 25 percent in some markets.

Both Network and Low-Cost Carriers Are Feeling the Financial
Pressure of Continued Growth in Jet Fuel Costs
All network carriers posted net losses in the first quarter of 2005, with a
cumulative loss of nearly $1.5 billion, which was a slight deterioration over the
$1.1 billion in cumulative losses for the first quarter of 2004. Network carriers
have made some progress in reducing labor and other costs, but continue to
struggle financially with the continued escalation of fuel prices. The cost per



CC-2005-057
                                                                                               3


gallon for domestic jet fuel in April 2005 ($1.56) was up 56 percent over the cost
per gallon in April 2004 ($1.00).

Low-cost carriers have generally fared better financially as their routes—and
market share—continue to expand. However, escalating fuel costs have resulted
in a less robust financial performance than in 2004. For example, JetBlue posted a
profit of $25.8 million in the first quarter of 2005, down 21 percent from the first
quarter of 2004. During this period, JetBlue’s fuel costs grew by 76 percent,
representing more than 40 percent of JetBlue’s total operating cost growth
between the first quarter of 2004 and first quarter of 2005.

One airline that has remained relatively insulated from the rapid growth in fuel
prices is Southwest Airlines, which has locked in, or “hedged” its future fuel costs
through 2009. While other airlines have seen fuel costs rise as the price of crude
oil has reached the $60 per barrel mark, Southwest has kept fuel costs relatively
stable with hedges locked in at $26 per barrel. Southwest’s current hedges extend
on a sliding scale through 2009, when they will decline to 25 percent of projected
consumption at a cost of approximately $35 per barrel.

Further     compounding
                                     Figure I: Average Short- and Long-Haul Fares
the ill effects of the                   3rd Quarter 2000 vs. 3rd Quarter 2004
higher cost of fuel is an                DOT data for 300 mile and 1000 mile average distances
equally       challenging       $180
revenue     environment.                                                                   $153

Although        passenger       $160
                                  Average Fare




                                        $177
traffic is back to 2000
levels, DOT data shows          $140                                                     $110
that average fares for all                          $117
                                $120
carriers (inclusive of
taxes and fees), in both
                                $100
short- and long-haul
                                         2000         2001         2002         2003         2004
markets lag 2000 fares.                            Short Haul Fares       Long Haul Fares
As Figure I illustrates, in
short-haul        markets
(251-350 miles), the average fare is $110, a drop of 6 percent from 2000 levels. In
long-haul markets (951-1050 miles), the average fare of $153 represents a
14 percent drop from the $177 average long-haul fare in 2000.

The average 1000-mile fares for the eight major carriers reported by the Air
Transport Association (ATA) demonstrated declines of an even greater magnitude.
In May 2000, the average fare (exclusive of taxes and fees) was $147; in
May 2005, it was $118—a drop of about 20 percent. The difference between the
fare changes reported by DOT and those reported by ATA are two-fold. First,


CC-2005-057
                                                                                                                                                                                   4


             DOT fares include taxes and fees. Increased fees and taxes between 2000 and
             2005 mask the drop in base fares that is demonstrated by the ATA data. Second,
             the eight carriers represented by the ATA figures were all network carriers in 2000
             (America West has since been re-categorized as a low-cost carrier). The sharp
             decline in fares for those eight carriers is an indicator of the impact of low-cost
             carrier competition on former network-carrier dominated markets. The average
             fare reduction also reflects the continued drop in premium-fare business travelers.

             Traffic Levels Are Growing, as Are the Number, Rate, and Length of
             Delays in Key Markets
             Both enplanements and operations are back to or greater than 2000 levels, when
             air travel was at its peak. Enplanements in 2004 were 698.7 million, just about
             250,000 short of year 2000 enplanements. As Figure II shows, flight operations in
             May 2005 actually exceeded May 2000 operations by 3 percent.

                                                                           In the first quarter of 2005,
                               Figure II. Actual Flight Operations         we saw a significant
                   Percent Change in Air Route Traffic Control Center
                           Operations From 2000 (FAA data)
                                                                           increase in the number of
              10%                                                          delays. First quarter 2005
                                                                           arrival delays were up
               5%
                                                                           17 percent over the first
Percentage




               0%                                                          quarter of 2004, and
              -5%
                                                                   May '05
                                                                           affected      more       than
                                                                    +3%    25 percent of all flights.
             -10%

                               Sep '01
                                                                           The average length of delay
             -15%
                                -16%                                       in the first quarter of 2005
             -20%                                                          averaged 52.3 minutes
                 Jan-01


                                   Jul-01

                                            Oct-01
                                                     Jan-02



                                                                       Jul-02
                                                                                Oct-02
                                                                                         Jan-03



                                                                                                           Jul-03
                                                                                                                    Oct-03
                                                                                                                             Jan-04



                                                                                                                                               Jul-04
                                                                                                                                                        Oct-04

                                                                                                                                                                 Jan-05
                          Apr-01




                                                              Apr-02




                                                                                                  Apr-03




                                                                                                                                      Apr-04




                                                                                                                                                                          Apr-05




                                                                           compared to 48.5 minutes
                                                                           in the same period in 2000.
                                                                           During the first quarter of
               2005, one-third or more of all arrivals were delayed at five airports, including New
               York-LaGuardia, Philadelphia, and Newark.

             Performance improved in April and May of 2005 with delays down 21 percent in
             the 2-month period over 2000 levels and down 10 percent over the same 2-month
             period in 2004. FAA attributes this improvement to very good weather during
             those two months. However, we expect that the summer travel season will be
             more problematic. Summer thunderstorms and weather disturbances typically
             compound congestion caused by seasonally high traffic volumes, especially in hub
             airports.




             CC-2005-057
                                                                                                                                                                                                  5


Traffic and Delays Are Likely To Grow This Summer and Be
Compounded by Summer Storms, Especially in the Northeast and
Southeast Regions of the United States
On May 26, 2005, we testified before the Senate Commerce Aviation
Subcommittee on aviation system capacity and delays.3 We noted that at the 15
airports with the highest delay rates in the first quarter of 2005 (all higher than
25 percent), nearly all experienced significant traffic growth, increased rates of
delay, and increased average minutes of delay compared to the first quarter of
2004. We projected that those trends would likely continue into the summer and
be compounded by summer storms, which are notorious for adding delays in
southeast and northeast markets like Atlanta and New York, which are already
suffering from capacity-related delays.

Preliminary June data indicates that congestion is returning.             Through
June 15, 2005, 23 airports had delay rates equal to or greater than 25 percent, and
of those, 9 were delayed more than 30 percent of the time. The worst delays were
in Atlanta where 35 percent of flights were delayed during the first 15 days of
June. Ten airports had average delays that exceeded 1 hour, with the longest
delays at LaGuardia, where the average delay exceeded 71 minutes.

The following figure identifies the ten most delayed airports, as measured by
percent of delayed flight arrivals, for the first 15 days of June. Nine of the ten
airports had delay rates that exceeded 30 percent and 4 had average delays that
exceeded 1 hour.

                                 Figure III. Ten Most Delayed Airports -
                           40%
                                              June 1-15, 2005                                                                                                                      80
                                                                                                                                                                   Avg =
                                 35%       33%
                           35%                      33%               33%                                                                                          1 Hour 70
                                                                                      32%           32%     32%               31%
                                                                                                                                               30%
                           30%                                                                                                                                     29%             60

                           25%                                                                                                                                                     50
                                                                                                                                                                                        Minutes
                 Percent




                           20%                                                                                                                                                     40
                                                                                                                                               Washington-Dulles
                                                                                                                              Chicago-O'Hare
                                                    West Palm Beach




                           15%                                                                                                                                                     30
                                                                                                            Fort Lauderdale




                                                                                                                                                                    New York-JFK
                                                                       Philadelphia




                           10%                                                                                                                                                     20
                                                                                       Louisville
                                 Atlanta


                                           Newark




                                                                                                    Miami




                           5%                                                                                                                                                      10

                           0%                                                                                                                                                      0
                                                                                      Percent                           Minutes



3
    OIG Report Number CC-2005-043, “Outlook for Aviation Delays in the Summer of 2005 and Actions Needed To
    Mitigate Congestion in the Short- and Long-Term,” May 26, 2005.


CC-2005-057
                                                                                    6



In our May 26, 2005 testimony, we raised concerns about six airports that had
particularly foreboding characteristics: Philadelphia, LaGuardia, Newark,
Washington-Dulles, Atlanta, and Fort Lauderdale. All had some or all of the
following characteristics:
  • Significant delays last summer,
  • Substantial projected traffic growth this summer, and
  • Consistently elevated delay rates sustained over the past year or longer.
While it is still early in the season, system performance to date tends to validate
our concerns. Between June 1 and June 15, five of the six airports we flagged in
May had delays on more than 30 percent of all flights. Four of the six airports had
delays that averaged more than 1 hour. Table 1 illustrates how the six flagged
airports fared during the first two weeks in June.


                     Table 1. Summer 2005 Airports To Watch
                   (Delays shown occurred June 1 through June 15)
                                                                                 Average
  Rank Based                             Total     Delayed      Percent         Minutes of
 on % Delayed          Airport          Arrivals   Arrivals     Delayed           Delay

       1        Atlanta                   20,453       7,128      34.85           57.95

       2        Newark                     8,676       2,896      33.38           67.06

       4        Philadelphia              10,539       3,432      32.56           67.48

       7        Fort Lauderdale            4,839       1,531      31.64           56.76

       9        Washington-Dulles          9,830       2,956      30.07           60.92

       12       NY-LaGuardia               8,198       2,315      28.24           71.41



Delays Were Severe at Chicago-O’Hare in Early June, but May Represent
a Weather-related Anomaly.
Through May 2005, delays appeared to be improving at Chicago-O’Hare, an
airport which has been plagued by congestion for more than 30 years despite
regulatory intervention. In April and May of 2005, only 14 percent and
18 percent, respectively, of flights were delayed—a significant improvement over
April and May of 2004 when 25 percent and 36 percent of flights were delayed,
respectively. The improvement appears to be, at least in part, a result of the




CC-2005-057
                                                                                                                    7


Department’s administrative actions in 20044 to cap hourly operations at O’Hare
at a level consistent with available capacity.5

In the first 2 weeks of June, however; 31 percent of all arrivals were delayed at
O’Hare and were delayed an average of 64 minutes; a rate not much improved
over 2004 before the Administration implemented hourly operating caps. FAA
attributes the early June delays to unusually bad weather. It is possible that the
period in question is just a weather anomaly and that operations will normalize as
the summer progresses. We would expect the Department to be following O’Hare
operations as well as other high-risk airports closely to determine whether and
what interventions might be necessary should a market reach critical levels of
delay.


The Resurgence in Delays Is Being Driven by Low-Cost Carrier
Growth, Network Carrier Hub Consolidation, and Increased Regional
Jet Traffic
    • Incursion of low-cost carriers into network carrier hubs spurs traffic and
      congestion growth. Low-cost carriers continue to increase the number of
      scheduled flights and seats, including growth in large hub airports which are
      more prone to congestion and delays. Systemwide, low-cost carriers now
      account for one-quarter of all available domestic seats, an increase of
      30 percent from July 2000. Compared to July 2000, scheduled seats by
      low-cost carriers in large hubs have grown from 8.0 million to 11.2 million, an
      increase of 41 percent.

    • Displaced traffic from de-emphasized network carrier hubs contributes to
      congestion growth in other hubs. In an effort to reduce costs and improve
      efficiency, at least two network carriers have closed or de-emphasized hub
      operations at some airports and transferred operations into remaining hubs.
      For example, US Airways downsized its Pittsburgh hub operations by
      3,800 flights in the fourth quarter of 2004 and shifted mainline aircraft and
      operations to its hubs in Philadelphia, Charlotte, and Fort Lauderdale. While
      delays in Pittsburgh were down minimally in the first quarter of 2005 from the
      first quarter of 2004, delays increased in each of the other three hubs by more


4
    FAA intervened three times in 2004 to negotiate or impose scheduling caps on carriers operating out of O’Hare. The
    first intervention in March 2004 reduced schedules by United and American by 5 percent. The second in June 2004
    reduced schedules another 2.5 percent. The third and final 2004 intervention occurred in November 2004 and
    capped scheduled peak-hour departures for all carriers, combined, at 88 per hour.
5
    The Department is currently soliciting comments on whether to continue the administrative controls at O’Hare for
    another 3 years until, ultimately, the first phase of the O’Hare Modernization Plan is complete and additional
    capacity could relieve some of the congestion.




CC-2005-057
                                                                                           8


   than 60 percent. Delta also eliminated Dallas-Fort Worth as a hub, shifting
   operations to Atlanta, Cincinnati, and Salt Lake City.

• Increased regional jet operations are increasing demands on high-altitude
   airspace and airport runways. Network carriers continue to shift service to
   regional jet aircraft. In July 2000, scheduled regional jet flights accounted for
   10 percent of all flights. In July 2005, they will account for 32 percent of all
   flights. In Cincinnati, regional jets account for nearly 80 percent of all traffic.
   Unlike their turbo-prop-driven predecessors, regional jets occupy the same
   airspace and require access to the same runways as larger jet aircraft. In the
   not-too-distant future, jet-powered general aviation aircraft—including micro-
   jets—will also be competing for similar airspace and airport facilities.


Service to Airports in the Smallest Communities Continues To
Decline or Stagnate While Service Is Consistently Rebounding in All
Other Airports
One area in the system that is not showing signs of recovery is service to small
communities. Travelers in small communities primarily depend on carriers’ “hub-
and-spoke” operations to connect them to their final destinations. While service
has been returning to small, medium, and large airports following a sharp decline
between 2001 and 2003, service at non-hub airports—which are the Nation’s
smallest commercial airports—has continued to decline or stagnate.

As Figure IV illustrates, all categories of airports experienced large percentage
decreases in service between July 2001 and July 2003. In July 2003, scheduled
departures at large, medium, small, and non-hub airports were down 9.4 percent,
8.1 percent, 6.1 percent, and 12.4 percent, respectively, over July 2000 levels.

                              Figure IV. Percent Change in Scheduled
                                 Departures Compared to July 2000
                        5%                    Flights w ithin 2 percent of 2000
                                              levels at all other-sized hubs
                        0%
                               2001    2002       2003           2004             2005
             Percent




                       -5%


                       -10%                                     Flights dow n 17 percent
                                                                July 2005 from July 2000
                       -15%


                       -20%            Non-hub           Small
             Source: FAA Data          Medium            Large




CC-2005-057
                                                                                   9


In 2004, the real divergence in recovery became apparent. Between July 2003 and
July 2004, scheduled departures at small, medium, and large hub airports
rebounded to within 4 percent of July 2000 levels. Service at non-hub airports,
however, continued to decline, with scheduled departures dropping more than
17 percent from July 2000 levels.

In July 2005, scheduled departures at small, medium, and large hubs will continue
to increase while service at non-hub airports is not expected to change materially
from July 2004 levels.

The service loss at non-hub airports has manifested itself in connections to airports
of all sizes. Compared to July 2000, scheduled flights from non-hub airports in
July 2005 are down by 15 percent at large hubs, 29 percent at medium hubs, and
33 percent at small hubs. In the next few months, we will be examining issues
related to small community service, including the patterns of cancellations and
delays imposed on service to and from airports in small communities.

If you have any questions or if I can be of further assistance, please feel free to
contact me at (202) 366-1959, or David A. Dobbs, Assistant Inspector General for
Aviation and Special Program Audits at (202) 366-0500.

Attachments (3)

                                         #




CC-2005-057
                                                                                                                   10



                        TABLE OF CONTENTS


  I. AIR SERVICE DEMAND AND CAPACITY

     Figure 1: Domestic Passenger Enplanements .......................................................22

     Figure 2: Domestic Passenger Capacity Versus Demand.....................................22

     Figure 3: Actual Flight Operations .......................................................................22

     Figure 4: Nine Major Airlines Reported Arrivals.................................................22

     Figure 5: Domestic Scheduled Capacity...............................................................22

     Figure 6: Regional Differences At All Airports ...................................................22

     Figure 7: Change In Capacity At Large Airports..................................................23

     Figure 8: Length Of Domestic Flights ..................................................................23

     Figure 9: Short Haul Flights By Type Of Airline .................................................23

     Figure 10: Airline Domestic Market Share...........................................................23

     Figure 11: Market Share Of Low-Cost Carrier Service........................................24

     Figure 12: Share Of Low-Cost Carrier Service Growth .......................................24

     Figure 13: Type Of Aircraft..................................................................................24

     Figure 14: Regional Jets At Large Airports..........................................................24

     Figure 15: Market Share By Aircraft Type...........................................................25

  II. AVIATION SYSTEM PERFORMANCE

     Figure 16: Number Of Flights With Delayed Arrivals. ........................................25

     Figure 17: Cancellations .......................................................................................25

     Figure 18: Percent Of Flights Arriving Late.........................................................25

     Figure 19: Length Of Arrival Delays....................................................................25

     Figure 20: Most Significant Changes In Arrival Delays By Airport ....................25

  III. AIRLINE FINANCES

     Figure 21: Revenues Versus Expenses .................................................................26


CC-2005-057
                                                                                                                 11


    Figure 22: Selected Network And Low Cost Airlines Operating
               Profit Or Loss.......................................................................................26

    Figure 23: Accumulated Net Losses And Gains...................................................26

    Figure 24: Cost Per Available Seat-Mile (Casm) .................................................26

    Figure 25: Domestic Yield For Eight Major Airlines...........................................26

    Figure 26: Average Short And Long-Haul Fares..................................................27

    Figure 27: Business Travel ...................................................................................27

    Figure 28: Passenger Load Factors .......................................................................27

    Figure 29: Individual Airline Load Factors ..........................................................27

    Figure 30: Cost Per Gallon Domestic Jet Fuel......................................................27

    Figure 31: Debt To Investment Ratio ...................................................................28

    Figure 32: Debt To Investment Ratio By Airline .................................................28

    Figure 33: Airport And Airway Trust Fund..........................................................28

  IV. AIR SERVICE AT SMALL AIRPORTS

    Figure 34: Non-Hub Versus Larger Airports........................................................28

    Figure 35: Service From Non-Hub Airports To All Hubs....................................28

    Figure 36: Access To Large Airports....................................................................28

    Figure 37: Type Of Aircraft At Non-Hub Airports ..............................................29

    Figure 38: Regional Differences At Non-Hubs ....................................................29

    Figure 39: Essential Air Service ...........................................................................29

    Figure 40: Airline Market Share At Non-Hubs ....................................................29




CC-2005-057
                                                                                                                        12



EXHIBIT A. SUMMARY OF AVIATION INDUSTRY
METRICS

I. Air Service Demand and Capacity
      •     AIR TRAFFIC DEMAND. System passenger ridership on U.S. airlines
            rebounded in 2004 and reached the levels seen during the peak year of 2000.
            Enplanements in 2004 were 698.7 million, just about 250,000 short of year
            2000 enplanements. After enplanements declined in 2001 and 2002 (down
            6.6 percent and 8.3 percent, respectively, from 2000), the passenger
            enplanements leveled off in 2003 and then rebounded strongly in 2004 (up 8
            percent over 2003). [Figure 1]

      • CAPACITY VERSUS DEMAND. Domestic passenger demand, as measured by
        revenue passenger miles (RPMs), and capacity, as measured by available seat
        miles (ASMs), increased throughout much of 2004 and the early part of
        2005. In recent months, passenger demand has grown more than capacity.
        In April 2005, passenger demand (RPMs) was 1 percent higher than
        April 2000 levels, while capacity (ASMs) was still down 5 percent.6
        [Figure 2]

      • FLIGHT OPERATIONS. FAA’s Air Route Traffic Control Centers reported
        handling 3 percent more flight operations in May 2005 than in May 2000.
        The recovery in flight operations began in late 2003 and since then has been
        close to or exceeded the number of flight operations that occurred during
        comparable months in 2000. [Figure 3]

      • FLIGHT ARRIVALS. Between May 2000 and May 2005, only 3 of the
        9 major airlines reported increases in the number of arrivals at the 55 large
        airports FAA tracks for delays. Southwest Airlines reported an increase of
        14 percent, Alaska Airlines reported an increase of 7 percent, and America
        West reported an increase of 3 percent. In comparison, the other six airlines
        reported declines ranging from 5 percent for Northwest to 32 percent for
        US Airways and United Airlines. These 6 legacy carriers have cut mainline
        domestic flights by an average of more than 2,000 daily flights. [Figure 4]

      • AIRLINE SCHEDULES—SUMMER 2005. Domestic flights and seats in
        July 2005 are scheduled to be down 3 percent and 4 percent, respectively,

  6
      Due to the sizable impact that the terrorist attacks had on domestic flight service during the latter part of 2001, we used
      2000 as the base year in many of our metrics.


  Exhibit A. Summary of Aviation Industry Metrics
                                                                                                             13


        over the same period in 2000. Compared to the same month in 2004, both
        the number of scheduled flights and seats in July 2005 are up about 2.5
        percent. As Figure 5 illustrates, there is a gap between the rates of recovery
        in scheduled flights and scheduled available seats. This situation is caused
        by carriers rebuilding service with smaller aircraft than were used in 2000.
        [Figure 5]

     • REGIONAL DIFFERENCES. When comparing all airports on a percentage
       basis, air service declined more in the northeast and midwest regions. For
       example, between July 2000 and July 2005, scheduled seats in the northeast
       and midwest regions decreased 9 and 13 percent, respectively, compared to a
       4-percent decrease in the west and a 2-percent increase in the south. On an
       absolute basis, the greatest seat loss was in the midwest region where
       available seats declined from 18.6 million in July 2000 to 16.2 million in July
       2005. The only increase was in the south where available scheduled seats
       went from 29.7 million in July 2000 to 30.4 million in July 2005. [Figure 6]

    • AIRPORT CAPACITY. The recovery in offered capacity among the Nation’s
      large hub airports continues to vary significantly between airports. For
      example, in July 2005, scheduled seats at 15 of the largest U.S. airports are
      expected to increase over July 2000 levels: Fort Lauderdale (+45 percent),
      Kennedy (+31 percent), Las Vegas (+24 percent), and Washington Dulles
      (+18 percent). Scheduled passenger seats also continue to grow at Baltimore,
      Charlotte, Atlanta, Tampa, Philadelphia, Orlando, Salt Lake City, San Diego,
      and Houston. Large airports losing seats during this period include
      St. Louis (-58 percent), Pittsburgh (-48 percent), San Francisco (-28 percent),
      Los Angeles (-23 percent), Newark (-17 percent), Honolulu (-17 percent),
      Boston (-17 percent), Miami (-16 percent), Dallas-Fort Worth (-11 percent),
      and Chicago O’Hare (-10 percent). [Figure 7]

    • LOSS OF SHORT-HAUL AIR SERVICE. Overall, traffic has rebounded but
      short-haul air service has not recovered. The number of scheduled flights
      with stage lengths of less than 250 miles is down 26 percent for July 2005
      compared to July 2000. In contrast, flights of 1000 miles or more increased
      15 percent. During this 5-year period, the network airlines7 were more likely
      to cut their short-haul flights, which declined by 45 percent, than either the




7
    Network airlines include Alaska Airlines, American Airlines, Continental Airlines, Delta Air Lines, Northwest
    Airlines, United Airlines, and US Airways.

Exhibit A. Summary of Aviation Industry Metrics
                                                                                                                        14


          low-cost carriers8 (11-percent decrease) or other smaller airlines9 (24-percent
          decrease). [Figures 8 and 9]

     • LOW-COST AND OTHER AIRLINES GAIN MARKET SHARE. Many low-cost
       and other airlines—including regional and commuter operators flying on
       behalf of the network carriers—have continued to expand their market shares
       (as measured in scheduled available passenger seats). Between July 2000
       and July 2005, low-cost carriers increased their share by 7 percentage points
       and now represent a quarter of all scheduled available seats. Regional (and
       other) carriers increased their share by 7 percentage points. In contrast,
       network carriers reduced capacity and their share of the scheduled domestic
       available seats declined from 62 percent in July 2000 to 48 percent in
       July 2005, reflecting a combination of seat reductions and seat transfers to
       regional partners. [Figure 10]

     • MARKET SHARE AND GROWTH OF LOW-COST CARRIERS. In July 2005,
       Southwest Airlines represented 59 percent of the total number of passenger
       seats scheduled by the low-cost carriers. Southwest Airlines also represented
       45 percent of the total growth in low-cost service over the last 7 years,
       followed by JetBlue (19 percent), Air Tran (17 percent), Frontier Airlines
       (8 percent), Spirit Airlines (4 percent), and America West Airlines
       (4 percent). [Figures 11 and 12]

     • GROWTH IN REGIONAL JET FLIGHTS. Following several years of
       significant growth, the use of regional jets continued to rise in
       July 2005.10 In July 2000, scheduled flights on regional jets totaled 91,960;
       in July 2005, they totaled 294,698, an increase of 220 percent. Regional jets
       will account for 32 percent of scheduled domestic flights in July 2005, up
       from only 10 percent in July 2000. At the same time, scheduled flights on
       non-jet aircraft—piston and turboprop aircraft—declined by a combined
       46 percent. Most of this reduction was in turboprop aircraft. In July 2000,
       scheduled flights on turboprop aircraft accounted for 28 percent of all
       scheduled flights; in July 2005, they will account for only 14 percent. Large
       jets (jets other than regional jets) declined slightly in the share of scheduled
       flights, declining from a share of 56 percent in July 2000 to a share of

8
     Low-cost airlines include AirTran Airways, American Trans Air, America West Airlines, Frontier Airlines, JetBlue
     Airways, National Airlines, Pan American Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard
     Airlines. However, Vanguard Airlines and National Airlines ceased operations in July and November of 2002,
     respectively.
9
     Other airlines include smaller regional, commuter, and national airlines (many of which are affiliated with the major
     network carriers).
10
     For this analysis, we defined regional jets as (1) jet aircraft seating 30 to 77 passengers operated by all carriers and
     (2) jet aircraft seating 78 to 100 passengers operated by regional carriers.


Exhibit A. Summary of Aviation Industry Metrics
                                                                                     15


      49 percent in July 2005. Overall, jet flights are on the rise, with an increase
      from 66 percent to 81 percent between 2000 and 2005. [Figures 13 and 15]

   • REGIONAL JET FLIGHTS AT LARGE AIRPORTS. Regional jets represent a
     larger percentage of total scheduled flights at the 31 largest U.S. airports.
     Those airports with the highest percentages of regional jet flights as of
     July 2005 are: Cincinnati (78 percent), Washington Dulles (65 percent),
     Chicago O’Hare (50 percent), Salt Lake City (50 percent), Houston
     (47 percent), Newark (46 percent), St. Louis (43 percent), Charlotte
     (42 percent), Reagan Washington National (41 percent), and Pittsburgh
     (40 percent).

      The growth in regional jets is being driven by changes in carriers’ strategy
      and new airlines entering the market. Delta’s decision to abandon its hub at
      the Dallas-Fort Worth airport resulted in a redeployment of aircraft to its
      other hubs in Cincinnati, Atlanta, and Salt Lake City, significantly increasing
      the regional jet population in these airports. Additionally, Independence
      Air’s debut at Washington-Dulles in 2004 with a fleet comprised almost
      entirely of regional jets has resulted in scheduled regional jet flights at Dulles
      increasing 346 percent in July 2005 over July 2000. [Figure 14]

II. Aviation System Performance

   • FLIGHT DELAYS AND CANCELLATIONS. In the first quarter of 2005, the
     number of delayed flights was 11 percent greater than the same period in
     2000 and was 17 percent greater than the same period in 2004. However,
     performance improved in April and May of 2005, resulting in delays either at
     or below the levels in place during the same months in 2004 and 2000.
     May 2005 flight delays were 23 percent below those in May 2000 and
     18 percent below May 2004 levels. Cancellations followed a similar pattern
     in the first 5 months of 2005. During the first quarter, the number of
     canceled flights was 27 percent greater than the first quarter of 2000 and
     24 percent greater than the first quarter of 2004. In April and May of 2005,
     however, cancellations were down 32 and 70 percent, respectively, from
     April and May 2000 levels. [Figures 16 and 17]

   • OTHER INDICATORS OF DELAYS. The percent of delayed flights in the first
     quarter of 2005 (25 percent) was consistent with comparable periods in 2000
     and 2004 when 24 percent and 22 percent of flights were delayed,
     respectively. However, performance improved in April and May 2005 with
     only 18 and 17 percent, respectively, of flights delayed. The average length
     of gate arrival delays during the first quarter of 2005 (52 minutes) was

  Exhibit A. Summary of Aviation Industry Metrics
                                                                                  16


      relatively unchanged from early 2004 (49 minutes) and early 2000
      (49 minutes). The May 2005 average length of delay (48 minutes)
      represented an improvement over May 2004 (56 minutes) and May 2000
      (53 minutes). [Figures 18 and 19]

    • DELAYS AT SELECTED AIRPORTS. Arrival delays across the system are at
      about the same level as they were in 2000. However, within the system, the
      delay profile varies widely; some airports are experiencing delays at levels
      significantly higher than 2000 while others’ delay levels are significantly
      lower. For example, in the first 5 months of 2005, arrival delays were up
      significantly in Fort Lauderdale (+82 percent), Memphis (+56 percent), and
      Charlotte (+54 percent). In contrast, the three large airports experiencing the
      greatest percentage reduction in arrival delays between early 2000 and 2005
      were St. Louis (-51 percent), San Francisco (-40 percent) and Pittsburgh
      (-36 percent). The significant decline in delays at these airports followed
      large reductions in their scheduled flights—St. Louis (-45 percent), San
      Francisco (-25 percent), and Pittsburgh (-42 percent). [Figure 20]

III. Airline Finances
   • AIRLINE REVENUES AND EXPENSES. Compared to the quarter ended March
     2000, operating revenues of the major passenger airlines in the quarter ended
     March 2005 were up by 6 percent and operating expenses were up by
     16 percent. Combined, expenses of the major airlines exceeded revenues by
     about $1.5 billion for the first quarter 2005. A sharp rise in fuel costs
     contributed to the increase in expenses. [Figure 21]

   • AIRLINE OPERATING PROFITS AND LOSSES. The first quarter of 2005
     operating results for 14 selected network and low-cost carriers illustrate the
     financial troubles of the airline industry. All network carriers posted losses
     and only a few low-cost carriers realized profits. Of the 11 selected carriers
     posting losses in the first quarter of 2005, four carriers—Delta, American
     Trans Air, Northwest, and United—cumulatively lost over $1.32 billion. The
     total profits of the three carriers posting a profit were $183 million, with
     Southwest’s profit of $106 million accounting for 58 percent of the total.
     [Figure 22]

   • ACCUMULATED NET LOSSES AND PROFITS. Network carriers’ losses
     continued into the first quarter of 2005 as each of the seven carriers reported
     net losses to combine for a total of -$3.2 billion. Between the first quarter of
     2001 and the first quarter of 2005, network carriers have accumulated a total
     of $32.8 billion in net losses. Over the 4-year period, three carriers

  Exhibit A. Summary of Aviation Industry Metrics
                                                                                                                     17


         accounted for 80 percent of the network carriers’ combined losses—United
         ($11.5 billion), Delta ($7.7 billion), and American ($7.1 billion). The low-
         cost carriers, as a group, likewise suffered during the first quarter of 2005,
         posting a net loss of $253 million. Between the first quarter of 2001 and the
         first quarter of 2005, the low-cost carrier group has accumulated a net loss of
         $315 million, due mostly to the $854 million in losses reported by
         ATA Airlines during and following its fourth quarter 2004 bankruptcy. Over
         the 4-plus year period, only AirTran, JetBlue, and Southwest Airlines have
         collective positive net incomes. [Figure 23]

     • COST PER AVAILABLE SEAT-MILE (CASM). Between 2000 and 2003, low-
       cost carriers were able to show a relatively constant CASM. However,
       rapidly rising fuel prices, affecting all airlines, has caused even the low-cost
       carriers (as a group) to experience a rising CASM beginning in 2004. The
       low-cost carrier group CASM for the first quarter of 2005 was 8.8 cents
       compared to 7.8 cents in the same quarter of 2000, but it was up from
       7.6 cents in the first quarter of 2004. Reorganization expenses related to
       ATA Airlines’ fourth quarter 2004 bankruptcy also affected the low-cost
       carrier group’s unit costs in the last two quarters. In the first quarter of 2005,
       network carriers posted a CASM of 13.5 cents, compared to 10.8 cents in the
       first quarter of 2000. While this appears to represent a significant growth in
       unit costs, the increase primarily reflects a change in financial reporting
       requirements initiated by the Department of Transportation in early 2003.
       Excluding the effects of the reporting change, the first quarter 2005 CASM
       that is comparable to the first quarter 2000 CASM is an estimated
       11.6 cents.11 [Figure 24]

     • AIR FARES AND YIELDS. One factor stimulating traffic growth is the
       continued decline in average airfares. For eight major airlines, as tracked by
       ATA12, the average airfare for a 1000-mile flight decreased from $147 in
       May 2000 to $118 in May 2005. Over the same period, yields were reduced
       by 20 percent. [Figure 25]

     • LONG- AND SHORT-HAUL FARES. Between 2000 and 2001, the average
       long- and short-haul airfares dropped significantly as airlines cut fares to hold
       on to a declining number of passengers—a trend that began well before
       September 11, 2001. Average fares in long-haul markets (950-1,050 miles)

11
     Partially contributing to increases in the network carriers’ CASM starting in 2003 is a change in accounting for the
     costs of selected affiliated regional carrier services. This reporting change added an estimated $2.1 billion dollars in
     the first quarter expense not similarly recorded in periods prior to 2003.
12
     The ATA includes eight airlines in its “major passenger airline” classification: American, Continental, Delta, Northwest,
     United, US Airways, Alaska, and America West.


Exhibit A. Summary of Aviation Industry Metrics
                                                                                18


    fell from $177 in the third quarter of 2000 to $155 in the third quarter of
    2001. Average short-haul (251-350 miles) fares fell during the same time
    from $117 to $103. Airfares recovered only slightly from 2002 through
    2003, but showed the combined effects of depressed ridership and low-cost
    competition. Although rising fuel costs and mounting financial losses of the
    network carriers put additional pressure on airlines to raise fares, the market
    would not sustain the increases and airfares remained relatively unchanged in
    2004 compared to the two previous years. In the third quarter of 2004, (the
    most recent airfare report available to date) long-haul fares averaged $153,
    and short-haul fares averaged $110, down 13.6 percent and 6 percent,
    respectively, from the same period in 2000. While the base fares have gone
    down, it is important to note that the prices paid by consumers for air travel
    may not have gone down. Security fees and passenger facility charges (PFC)
    have increased since 2000 and may result in higher total ticket prices;
    particularly in the short-haul markets. [Figure 26]

 • BUSINESS AND LEISURE TRAVEL. The drop in business travel which began
   before September 11, 2001 has continued through 2004. The percentage of
   passengers traveling on first-class, business-class, or unrestricted coach
   tickets declined from 21 percent in the first quarter of 2000 to 12 percent in
   the fourth quarter of 2004. The decline in usage of typical business fares
   does not, however, imply that passengers traveling for business reasons have
   changed by the same percentages. It may indicate that business travelers are
   changing their travel patterns in order to use less expensive restricted fares
   and that airlines are changing their fare restrictions (such as Saturday night
   stay) in order to recapture some of the higher-paying traffic. Recent strength
   in passenger ridership and load factors may eventually pave the way for
   larger increases in business fares and reinstatement of fare usage restrictions,
   although attempts to date have not been successful. [Figure 27]

 • AIRLINE LOAD FACTORS. Load factors for the major passenger airlines
   system operations averaged 75 percent for the quarter ending March 2005,
   compared to 72 percent for the quarter ending March 2004. For the quarter
   ending March 2005, the break-even load factors (the average percent of
   paying passengers needed on all flights to cover airline costs) were
   85 percent while actual load factors were 75 percent, a gap of 10 percentage
   points. Seven of the nine largest airlines failed to reach their break-even
   points. Only Southwest Airlines’ and America Wests’ load factors exceeded
   the break-even levels. [Figures 28 and 29]

 • FUEL COSTS. Since October 2003, jet fuel prices have been steadily rising.
   In April 2005, jet fuel prices reached $1.56 per gallon, which exceeded the
   prices for the same period in 2004 ($1.00 per gallon) by 56 percent. ATA

Exhibit A. Summary of Aviation Industry Metrics
                                                                                                               19


           estimates that every penny increase in the price of a gallon of fuel translates
           into $186 million more in annual operating expense. ATA estimates that jet
           fuel will cost the industry $6.8 billion more in 2005 than in 2004.
           [Figure 30]

       • AIRLINE DEBT TO INVESTMENT RATIO. The debt to investment ratio for
         major passenger airlines was 107 percent for the quarter ending
         March 2005—a new 5-year high and more than double the average debt to
         investment ratio of the airlines in the third quarter of 2000 (48 percent).13
         The debt to investment ratio is one measure of an airline’s ability to finance
         operations in the face of uncertain operating revenues. In the quarter ending
         March 2005, four of the nine largest airlines had debt to investment ratios
         above 100 percent, including United Airlines (403 percent), Delta Air Lines
         (162 percent), US Airways (125 percent), and American Airlines
         (101 percent). In contrast, Southwest Airline’s debt to investment ratio was
         25 percent. [Figures 31 and 32]

       • AIRPORT AND AIRWAY TRUST FUND (TRUST FUND).                           Before
         September 11, 2001, the FAA projected overall trust fund revenues of
         $14.5 billion for FY 2005. FAA now estimates $10.9 billion in revenues in
         2005, a reduction of about 25 percent. During the next 4 years (2005
         through 2008), Airport and Airway Trust Fund tax revenues are expected to
         be about $15.3 billion less than projections made in April 2001. [Figure 33]

IV. Air Service at Small Airports
       • CHANGES IN AIR SERVICE. Non-hub airports still suffer from a considerable
         loss of capacity (as measured by scheduled seats) compared to 1998 levels of
         service. Seats scheduled for July 2005 at non-hub airports are down
         15 percent from 1998, which, while significant, is an improvement from the
         20 percent decline in January 2003. Capacity at large, medium, and small
         hub airports is showing a stronger pattern of recovery from the declines
         experienced in the 2001 to 2003 period. Scheduled seats for July 2005 are
         5 percent greater than in July 1998. Growth in the most recent 6 months of
         2005 (February through July) compared to 1998 have been at a rate of
         5 percent or greater. While year-to-date 2005 available seat capacity at large,
         medium, and small hubs has grown above 1998 levels, it is still below the
         peak of the 2000 to 2001 level. [Figure 34]


  13
       DOT publishes debt to total investment ratios in the Major Airline Quarterly Financial Review. Debt is defined as
       long-term debt, capital leases, and advances from associated companies, less unamortized debt expenses. Total
       investment includes all the debt items plus stockholder’s equity.

  Exhibit A. Summary of Aviation Industry Metrics
                                                                                  20


    • SERVICE FROM NON-HUBS TO ALL HUBS. Service to and from the smallest
      communities—those with non-hub airports—continue to experience
      significant degradations in connectivity to carrier networks. Compared to the
      number flights scheduled in July 2000 from non-hub airports, the number of
      flights scheduled to large hubs is down 15 percent. Scheduled flights from
      non-hub airports to medium-sized and smaller airports are down 29 percent
      and 33 percent, respectively. Finally, flights connecting non-hub airports to
      other non-hub airports are down 18 percent. [Figure 35]

    • ACCESS TO LARGE AIRPORTS. Between July 2000 and July 2005,
      scheduled flights between non-hub airports and the largest airports declined
      by 15 percent. In contrast to the decline in service between non-hub airports
      and large hub airports, service connecting other airports to large hubs has
      increased since 2000. Compared to July 2000, the number of scheduled
      flights in July 2005 to large hubs from small hubs and medium hubs
      increased by 12 and 8 percent, respectively. The number of flights scheduled
      from large hubs to other large hubs declined slightly. [Figure 36]

    • REGIONAL JET GROWTH AT NON-HUB AIRPORTS. In July 2005, scheduled
      flights at non-hub airports involving regional jets will exceed July 2000
      flights by 199 percent. By comparison, flights involving other aircraft types
      have experienced sharp declines, including turboprop (-39 percent), large jets
      (-29 percent), and piston (-17 percent). Despite the gains by regional jets and
      declines in service by other aircraft types, piston and turboprop aircraft
      continue to supply the majority of service at non-hub airports (74 percent
      combined in July 2005). [Figure 37]

    • NON-HUB AIRPORT SERVICE LOSSES BY REGION. Service declines at non-
      hub airports have largely been concentrated in the northeast and midwest
      states. In July 2005, capacity (as measured by available seats) at non-hub
      airports in these two regions, combined, was 22 percent below the capacity
      level of July 2000. Capacity at non-hub airports has also declined in the
      southern and western regions of the United States. However, the drop (on a
      percentage basis) has not been as pronounced. In July 2005, combined
      capacity in the southern and western regions declined 6 percent from
      July 2000 levels. [Figure 38]

•      ESSENTIAL AIR SERVICE (EAS). Beginning in FY 2002, congressional
       funding and the number of small communities requesting EAS subsidies
       increased significantly. Between FY 2001 and FY 2005, funding rose from
       $50 million to $102 million and the number of communities receiving
       subsidized service increased from 115 to 151. It is unclear whether or not
       and to what extent the subsidies will be sustained at this level as the
Exhibit A. Summary of Aviation Industry Metrics
                                                                                                           21


          President’s budget for 2006 again requests only $50 million in funding.
          [Figure 39]

     • CARRIER SERVICE PROFILES AT NON-HUB AIRPORTS. Service at non-hub
       airports continues to be dominated by regional carriers flying on behalf of
       network carriers. The network carriers are increasingly relying on regional
       partners with their smaller aircraft for more economical connections to less
       dense markets. Similarly, low-cost carriers continue to avoid non-hub
       airports, where demand for point-to-point service is insufficient to make it
       economically feasible to serve with their fleets of larger aircraft. Overall,
       low-cost airlines scheduled service to only 5 of the more than 500 non-hub
       airports for July 2005,14 representing approximately 2 percent of the total
       available passenger seats at these airports. In comparison, the network and
       regional/other smaller airlines comprised 17 percent and 81 percent,
       respectively, of scheduled available seats at non-hub airports. [Figure 40]




14
     These data include only those non-hub airports that receive at least one scheduled flight per week.

Exhibit A. Summary of Aviation Industry Metrics
                                                                                                                                                                                                                                                                                                                                                                                                                                    22
                                                                                                                                                Airline Industry Performance Metrics


                      Figure 1: Passenger Enplanements 2000-2004                                                                                                                                                                                       Figure 2: Domestic Passenger Capacity vs. Demand
                      (DOT Data)                                                                                                                                                                                                                       Percent Change in Scheduled Available Seat Miles (ASM) vs.
                                                                                                                                                                                                                                                       Revenue Passenger Miles (RPM) From 2000 (ATA Data)
                                    698.9                                                                                                                                                               698.7
           700                                                                                                                                                                                                                                                                                                                                                                                                April '05 RPM
                                                                                                                                                                                                                                                                      20%                                                                                                                                          +1%
                                                                    652.9
                                                                                                                                                               647.4
                                                                                                             640.9                                                                                                                                                    10%
           650
Millions




                                                                                                                                                                                                                                                                       0%




                                                                                                                                                                                                                                                         Percentage
           600                                                                                                                                                                                                                                                        -10%

                                                                                                                                                                                                                                                                      -20%                                                                                                                               April '05 ASM
                                                                                                                                                                                                                                                                                                                                                                                                               -5%
           550                                                                                                                                                                                                                                                        -30%

                                                                                                                                                                                                                                                                      -40%




                                                                                                                                                                                                                                                                                                                                            Oct-02
                                                                                                                                                                                                                                                                                                                                                     Jan-03

                                                                                                                                                                                                                                                                                                                                                              Apr-03


                                                                                                                                                                                                                                                                                                                                                                                 Oct-03

                                                                                                                                                                                                                                                                                                                                                                                          Jan-04
                                                                                                                                                                                                                                                                                                                                                                                                    Apr-04



                                                                                                                                                                                                                                                                                                                                                                                                                      Oct-04
                                                                                                                                                                                                                                                                                                                                                                                                                               Jan-05

                                                                                                                                                                                                                                                                                                                                                                                                                                        Apr-05
                                                                                                                                                                                                                                                                                                                                   Jul-02




                                                                                                                                                                                                                                                                                                                                                                        Jul-03




                                                                                                                                                                                                                                                                                                                                                                                                             Jul-04
                                                                                                                                                                                                                                                                                                        Oct-01
                                                                                                                                                                                                                                                                             Jan-01




                                                                                                                                                                                                                                                                                                                 Jan-02
                                                                                                                                                                                                                                                                                      Apr-01




                                                                                                                                                                                                                                                                                                                          Apr-02
                                                                                                                                                                                                                                                                                               Jul-01
           500
                                2000                             2001                                2002                                             2003                                       2004
                                                                                                                                                                                                                                                                                                                           Available Seat Miles


Figure 3: Actual Flight Operations                                                                                                                                                                                                                        Figure 4: Nine Major Airlines Reported Arrivals
Percent Change in Air Route Traffic Control Center Operations                                                                                                                                                                                             Percent Change in Actual Arrivals by Airline 5/05 vs. 5/00
From 2000 (FAA Data)                                                                                                                                                                                                                                      (FAA Data, 55 Major Airports)
                                                                                                                                                                                                                                                                      25%
                    10%                                                                                                                                                                                                                                                               14%
                                                                                                                                                                                                                                                                                                        7%
                     5%                                                                                                                                                                                                                                               10%                                                 3%
                                                                                                                                                                                                                                                        Percentage
 Percentage




                     0%                                                                                                                                                                                                                                               -5%
                                                                                                                                                                                                                                                                                                                                        -5%
                                                                                                                                                                                                                       May '05
                    -5%                                                                                                                                                                                                                                               -20%
                                                                                                                                                                                                                        +3%                                                                                                                             -18%             -18%
                                                                                                                                                                                                                                                                                                                                                                                          -24%
                    -10%
                                                                                                                                                                                                                                                                      -35%                                                                                                                                   -32%              -32%
                                                                                                    Sept '01
                    -15%                                                                             -16%
                                                                                                                                                                                                                                                                      -50%




                                                                                                                                                                                                                                                                                                                                                                                                             s
                                                                                                                                                                                                                                                                                      t




                                                                                                                                                                                                                                                                                                                                       st




                                                                                                                                                                                                                                                                                                                                                                                           n
                                                                                                                                                                                                                                                                                                    ka




                                                                                                                                                                                                                                                                                                                                                                          a




                                                                                                                                                                                                                                                                                                                                                                                                                               ed
                                                                                                                                                                                                                                                                                                                      t




                                                                                                                                                                                                                                                                                                                                                          l
                                                                                                                                                                                                                                                                                                                                                        ta
                                                                                                                                                                                                                                                                                  s




                                                                                                                                                                                                                                                                                                                   es




                                                                                                                                                                                                                                                                                                                                                                                                          ay
                                                                                                                                                                                                                                                                                                                                                                                        ica
                                                                                                                                                                                                                                                                                                                                                                          lt
                    -20%
                                                                                                                                                                                                                                                                                                                                   we
                                                                                                                                                                                                                                                                               we


                                                                                                                                                                                                                                                                                                  as




                                                                                                                                                                                                                                                                                                                                                                       De
                                                                                                                                                                                                                                                                                                                                                     en




                                                                                                                                                                                                                                                                                                                                                                                                                           it
                                                                                                                                                                                                                                                                                                                 W




                                                                                                                                                                                                                                                                                                                                                                                                        rw


                                                                                                                                                                                                                                                                                                                                                                                                                        Un
                                                                                                                                                                                                                                                                                                                                                                                      er
                                                                                                                                                                                                                                                                             th




                                                                                                                                                                                                                                                                                                                               rth
                           Jan-01
                                    Apr-01


                                                        Oct-01
                                                                   Jan-02

                                                                               Apr-02


                                                                                                        Oct-02

                                                                                                                      Jan-03
                                                                                                                                    Apr-03


                                                                                                                                                                    Oct-03
                                                                                                                                                                                  Jan-04

                                                                                                                                                                                               Apr-04


                                                                                                                                                                                                                       Oct-04
                                                                                                                                                                                                                                  Jan-05
                                                                                                                                                                                                                                             Apr-05
                                              Jul-01




                                                                                           Jul-02




                                                                                                                                                      Jul-03




                                                                                                                                                                                                           Jul-04




                                                                                                                                                                                                                                                                                               Al




                                                                                                                                                                                                                                                                                                                                                 ti n
                                                                                                                                                                                                                                                                                                            ica




                                                                                                                                                                                                                                                                                                                                                                                                     Ai
                                                                                                                                                                                                                                                                                                                                                                                 Am
                                                                                                                                                                                                                                                                           u




                                                                                                                                                                                                                                                                                                                            No



                                                                                                                                                                                                                                                                                                                                               n
                                                                                                                                                                                                                                                                        So




                                                                                                                                                                                                                                                                                                                                                                                                   US
                                                                                                                                                                                                                                                                                                                                            Co
                                                                                                                                                                                                                                                                                                          er
                                                                                                                                                                                                                                                                                                        Am




       Figure 5: Domestic Scheduled Capacity                                                                                                                                                                                                            Figure 6: Regional Differences at All Airports
       Percent Change in Scheduled Flights and Available Seats at
                                                                                                                                                                                                                                                        Percent Change in Scheduled Available Seats at All Airports 7/05
       All Airports From 2000 (FAA Data)
                                                                                                                                                                                                                                                        vs. 7/00 (FAA Data)
                      4%                                                                                                                                                                                                                                                                                                                                                Midwest
                                                                                                                                                                                                                                                                             West                                                                                        -13%
                      0%                                                                                                                                                                                                                                                     -4%
                                                                                                                                                                                                                                                                                                                                                                                                                  Northeast
       Percentage




                     -4%                                                                                                                                                                                                                                                                                                                                                                                            -9%

                     -8%


                    -12%                                                                                                                                                                                                                                                                                                                                                                           South
                                                                                                                                                                                                                                                                                                                                                                                                   +2%
                    -16%
                           Jan-01
                                    Apr-01


                                                       Oct-01
                                                                 Jan-02
                                                                            Apr-02


                                                                                                    Oct-02
                                                                                                                 Jan-03
                                                                                                                               Apr-03


                                                                                                                                                           Oct-03
                                                                                                                                                                         Jan-04
                                                                                                                                                                                      Apr-04


                                                                                                                                                                                                              Oct-04
                                                                                                                                                                                                                         Jan-05
                                                                                                                                                                                                                                    Apr-05
                                             Jul-01




                                                                                        Jul-02




                                                                                                                                             Jul-03




                                                                                                                                                                                                  Jul-04




                                                                                                                                                                                                                                              Jul-05




                                                                                                                                                                                                                                                                                                                 National Average -4%
                                                        Scheduled Flights                                                                                            Available Seats




     EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                 23
                                     Airline Industry Performance Metrics


                                                                    Figure 8: Length of Domestic Flights
  Figure 7: Change in Capacity at Large Airports
  Percent Change in Scheduled Flights and Available Seats at the
                                                                    Percent Change in Scheduled Flights by Length of
  31 Largest Airports 7/05 vs. 7/00 (FAA Data)                      Flight 7/05 vs.7/00 (FAA Data)
                                                                                                                                                  27%
                                                                                               30%
   -60%   -40%   -20%   0%     20%    40%    60%
                                                                                               20%                                                                   15%
                                                 Fort Lauderdale




                                                                                 Percentage
                                                                                               10%
                                                 Kennedy
                                                                                                   0%
                                                 Las Vegas                                                                     -3%
                                                                                               -10%
                                                 Dulles
                                                                                               -20%
                                                 Baltimore                                     -30%            -26%
                                                 Charlotte                                     -40%
                                                                                                               0 to 249      250 to 499        500 to 999           1,000+
                                                 Atlanta
                                                                                                                                     Miles
                                                 Tampa

                                                 Philadelphia

                                                 Orlando
                                                                    Figure 9: Short-Haul Flights by Type of Airline
                                                                    Percent Change in Scheduled Flights Less Than 250 Miles by
                                                 Salt Lake City     Type of Airline 7/05 vs. 7/00 (FAA Data)
                                                 San Diego                                         0%
                                                 Houston

                                                 Phoenix                                      -15%                                      -11%
                                                                           Percentage




                                                 Cincinnati
                                                                                              -30%                                                                 -24%
                                                 Reagan National

                                                 Denver
                                                                                              -45%
                                                                                                                    -45%
                                                 Minneapolis

                                                 Detroit                                      -60%
                                                                                                                 Network               Low-Cost             Regionals and
                                                 LaGuardia                                                                                                     Others

                                                 Seattle

                                                 Chicago O'Hare
                                                                    Figure 10: Airline Domestic Market Share
                                                 Dallas-Ft. Worth   Airline Market Share by Scheduled Available Seats (FAA Data)
                                                 Miami
                                                                                         75%
                                                 Honolulu
                                                                                                    62%             61%
                                                                                         60%                                 58%
                                                 Boston                                                                                   54%
                                                                                                                                                        51%           48%
                                                                    Percentage




                                                 Newark                                  45%

                                                 Los Angeles
                                                                                         30%                                                                              27% 25%
                                                                                                                                  22%        23% 23%        25% 24%
                                                 San Francisco                                          20%           20% 20% 21%
                                                                                                              18%
                                                 Pittsburgh                              15%

                                                 St. Louis
                                                                                              0%
                                                                                                        7/00          7/01      7/02         7/03           7/04          7/05

           Scheduled Flights             Available Seats
                                                                                                                Network       Regionals and 0thers            Low-Cost




EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                               24
                                                 Airline Industry Performance Metrics


Figure 11: Market Share of Low-Cost Carrier                                   Figure 14: Regional Jets at Large Airports
Service Airline Share of Service by Scheduled Available                       RJs Share of Scheduled Flights at 31 Largest Airports 7/05
Seats, 7/05 (FAA Data)                                                        vs. 7/00 (FAA data)

                                                      America                                     0%    15%         30%         45%          60%         75%
                                  Other, 1%
                                                     West, 12%
                Spirit, 2%                                                           Cincinnati

                                                                                         Dulles
               Frontier, 4%
                                                                                Chicago O'Hare

  JetBlue, 7%                                                                    Salt Lake City

                                                                                       Houston
       ATA, 4%
                                                                                       Newark
                                                                 Southwest,
                                AirTran, 11%                        59%               St. Louis

                                                                                      Charlotte

                                                                               Reagan National
Figure 12: Share of Low-Cost Carrier Service                                         Pittsburgh
Growth Airline Share of Growth by Scheduled Available Seats,
                                                                                     LaGuardia
7/98 vs. 7/05 (FAA Data)
                                                                                   Philadelphia

                                     Other, 1%      America                             Detroit
                        Spirit, 4%                  West, 4%
                                                                 Southwest,           Kennedy
                 Frontier, 8%                                       45%        Dallas-Ft. Worth

                                                                                        Atlanta
      ATA, 2%
                                                                                   Minneapolis
  JetBlue, 19%
                                                                                        Boston

                              AirTran, 17%                                              Denver

                                                                                       Phoenix

                                                                                       Orlando

                                                                                 San Francisco

      Figure 13: Type of Aircraft                                               Fort Lauderdale
      Percent Change in Number of Domestic Scheduled                                    Tampa
      Flights by Type of Aircraft 7/05 vs. 7/00 (FAA Data)
                                                                                         Miami
               250%                                              220%
                                                                                   Los Angeles
               200%
                                                                                    Las Vegas
               150%
  Percentage




               100%                                                                  San Diego
                                                                                                              Out of the large hub airports tracked
                50%                                                                   Baltimore               byOut
                                                                                                                  theofFAA,
                                                                                                                        the 31 Honolulu
                                                                                                                               large hub airports  tracked
                                                                                                                                          is the only
                                                                                                                by the
                                                                                                              one      FAA, Honolulu
                                                                                                                    without            is thejet
                                                                                                                             any regional     only one
                                                                                                                                                 service
                 0%                                                                     Seattle               inwithout  any regional jet service in both
                                                                                                                 both years
                                                                                                                years.
                -50%                     -16%       -15%
                                                                                      Honolulu
                         -53%
               -100%
                       Turboprop       Large Jets   Piston     Regional
                                                                 Jets
                                                                                                  July 2000                           July 2005




  EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                                                                                        25
                                                                                             Airline Industry Performance Metrics


Figure 15: Market Share by Aircraft Type                                                                                                          Figure 16: Number of Flights With Delayed Arrivals
Percent Share of Scheduled Flights by Type of Aircraft                                                                                            (FAA Data - All Airlines, 55 Major Airports)
July 2000, 2002, and 2005 (FAA Data)
                                                                                                                                                                                              250000
                                                                                                                                                                                                                      1Q '05 v '00                  April-May '05 v '00
                         60%             56%                                                                                                                                                                             +11%                              -21%
                                                                                  55%
                                                                                                                                                                                              200000
                                                                                                                         49%




                                                                                                                                                                           Delayed Arrivals
                         50%
                                                                                                                                                                                              150000
                         40%                             34%
            Percentage




                                                                                                                               32%
                                                                                                     27%
                         30%                                                                                                                                                                  100000
                                                                                             18%                                     19%
                         20%
                                                                                                                                                                                               50000
                                                 10%
                         10%
                                                                                                                                                                                                      0




                                                                                                                                                                                                                                                         May
                                                                                                                                                                                                                                   Mar




                                                                                                                                                                                                                                                                          Jul
                                                                                                                                                                                                                                              Apr




                                                                                                                                                                                                                                                                                                          Oct
                                                                                                                                                                                                                Jan

                                                                                                                                                                                                                           Feb




                                                                                                                                                                                                                                                                  Jun



                                                                                                                                                                                                                                                                                  Aug

                                                                                                                                                                                                                                                                                              Sep




                                                                                                                                                                                                                                                                                                                         Dec
                                                                                                                                                                                                                                                                                                                  Nov
                             0%
                                                July-00                                  July-02                           July-05

                                                                 Large Jets                  Regional Jets         Non-Jet                                                                                                       2000                               2004                                  2005




                    Figure 17: Cancellations                                                                                                                                         Figure 18: Percent of Flights Arriving Late
                    (FAA Data - All Airlines, 55 Major Airports)                                                                                                                     (FAA Data - All Airlines, 55 Major Airports)

                         45000                                                                                                                                    40%
                                                         1st Qtr                                                                                                                                                                   May '05                                         Dec '00
                         40000                          '05 v '00                                                                                                                                                                   17%                                             36%
                         35000                            + 27%                        May '05 v '00                                                              30%
                                                                                          -70%
                         30000
    Cancellations




                                                                                                                                                 Percentage




                         25000
                                                                                                                                                                  20%
                         20000
                         15000
                                                                                                                                                                  10%
                         10000
                         5000
                              0                                                                                                                                        0%
                                                                                                                                                                                                                                                                   Jul
                                                                                                                                                                                                                                             May
                                                                                                                                                                                                Jan

                                                                                                                                                                                                          Feb




                                                                                                                                                                                                                                                         Jun




                                                                                                                                                                                                                                                                            Aug

                                                                                                                                                                                                                                                                                        Sep




                                                                                                                                                                                                                                                                                                                        Dec
                                                                                                                                                                                                                       Mar

                                                                                                                                                                                                                                 Apr




                                                                                                                                                                                                                                                                                                    Oct

                                                                                                                                                                                                                                                                                                                Nov
                                                                                                     Jul
                                                                                 May
                                        Jan

                                                Feb




                                                                                             Jun



                                                                                                             Aug

                                                                                                                    Sep




                                                                                                                                           Dec
                                                         Mar

                                                                     Apr




                                                                                                                               Oct

                                                                                                                                     Nov




                                                          2000                                     2004                          2005                                                                                        2000                                2004                                2005



          Figure 19: Length of Arrival Delays                                                                                                                         Figure 20: Most Significant Changes in Arrival
          (FAA Data - All Major Airlines, 55 Major Airports)                                                                                                          Delays by Airport - Percent Change in Arrival Delays for
                                                                                                                                                                           Year-to-Date 05/2005 vs. 2000 (FAA Data)
                     75                                                     May '04 56 Minutes                                                                                                  1
                                                                                                                                                                                                          82%
                                                                            May '05 48 Minutes                                                                                                0.8
                     60                                                                                                                                                                                                          56%                54%
                                                                                                                                                                                              0.6
                                                                                                                                                              Percentage
Minutes




                     45                                                                                                                                                                       0.4

                                                                                                                                                                                              0.2
                     30
                                                                                                                                                                                                0

                                                                                                                                                                                              -0.2
                     15
                                                                                                                                                                                              -0.4
                                                                                                                                                                                                                                                                         -36%
                                                                                                                                                                                                                                                                                          -40%
                         0                                                                                                                                                                    -0.6                                                                                                               -51%
                                                                                                   Jul
                                                                           May
                                  Jan

                                          Feb




                                                                                       Jun




                                                                                                           Aug

                                                                                                                   Sep




                                                                                                                                           Dec
                                                  Mar

                                                               Apr




                                                                                                                           Oct

                                                                                                                                     Nov




                                                                                                                                                                                                 le                           is                   tte                   h            co                    uis
                                                                                                                                                                                              rda                           ph                 rl o                   urg         c is                    Lo
                                                                                                                                                                                            de                            em                 ha                    tsb         ran                    St.
                                                                                                                                                                                         Lau                          M                  C                     Pit          n F
                                                      2000                                     2004                            2005                                                  Ft.                                                                                  Sa




     EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                                                                                                                       26
                                                                                         Airline Industry Performance Metrics


Figure 21: Revenues vs. Expenses                                                                                                                                         Figure 22: Selected Network and Low- Cost
Major Passenger Carriers Operating Revenues vs. Operating
Expenses 1Q 2000 through 1Q 2005 (DOT Data)                                                                                                                              Airlines Operating Profit or Loss
                                                                                                                                                                         System Operations for Quarter Ending 3/31/05 (DOT Data)
                           $30                                                                                              Expenses
                                                                                                                              $25.4                                                                                             Millions

                           $25                                                                                                                                            -$500 -$400 -$300 -$200 -$100                                                      $0          $100           $200


                           $20                                                                                                                                                                                                                                                   $106             Southwest
             $ Billions




                           $15
                                                                                                                           Revenues                                                                                                                                      $51                      America West
                                                                                                                             $23.9
                           $10
                                                                                                                                                                                                                                                                      $26                         JetBlue
                            $5

                                                                                                                                                                                                                                                      -$3                                         Frontier
                            $0
                                 1Q 00


                                              3Q 00


                                                           1Q 01


                                                                      3Q 01


                                                                                1Q 02


                                                                                         3Q 02


                                                                                                      1Q 03


                                                                                                                   3Q 03


                                                                                                                                1Q 04


                                                                                                                                             3Q 04


                                                                                                                                                           1Q 05
                                                                                                                                                                                                                                                     -$5                                          Spirit

                                                      Operating Revenues                                      Operating Expenses
                                                                                                                                                                                                                                                    -$9                                           AirTran


Figure 23: Accumulated Net Losses and Gains                                                                                                                                                                                                  -$44                                                 American
1Q 01 Cumulatively Through 1Q 05 (DOT Data)                                                                        Low-Cost Carriers
                                                                                                                    -$315 million(1Q 05)                                                                                                  -$71                                                    Alaska
                               $0

                                                                                                                                                                                                                      -$182                                                                       US Airways
                          -$5,000


                 -$10,000                                                                                                                                                                                        -$189                                                                            Continental
$ Millions




                 -$15,000                                                                                                                                                                                   -$235                                                                                 United

                 -$20,000
                                                                                                                                                                                                  -$287                                                                                           Northwest
                 -$25,000
                                                                                                                                                                                        -$359                                                                                                     American Trans Air
                                                                   Network Carriers -$32.8 billion (1Q 05)
                 -$30,000
                                                                                                                                                                                -$439                                                                                                             Delta
                 -$35,000
                                                           YE
                                                           YE '01                  YEYE
                                                                                      '02                     YE '03
                                                                                                                  YE                         YE '04
                                                                                                                                                 YE
                                                        '01
                                                       Network Carriers'02 Low-Cost Carriers
                                                                                    '03                                                              '04




 Figure 24: Cost Per Available Seat-Mile (CASM)                                                                                                                    Figure 25: Domestic Yield for Eight Major
 1Q 2000 through 1Q 2005 (DOT Quarterly Domestic Data)                                                                                                             Airlines
                                                                                                                               1Q 05                               Percent Change in Airline Yield From 2000 (ATA Data)
                                                                                  Accounting                                                                                       5%
                                                                                                                             13.5 cents
                          14                1Q 00                               change effective
                          13              10.8 cents                                                                                                                               0%
                          12                                                                                                                                                                                                                                                                          April '05
                                                                                                                                                                                  -5%
                                                                                                                                                                   Percentage




                          11                                                                                                                                                                                                                                                                           -20%
                          10                                                    Without change                                                                                   -10%
   Cents




                           9                                                     in accounting
                                                                                                                                                                                 -15%
                           8
                           7                                                                                                                                                     -20%
                                                  1Q 00
                           6                     7.8 cents
                                                                                                                                 1Q 05
                                                                                                                                8.8 cents                                        -25%
                           5
                           4                                                                                                                                                     -30%
                                                                                                                                                                                         Jan-01
                                                                                                                                                                                                   Apr-01


                                                                                                                                                                                                                       Oct-01
                                                                                                                                                                                                                                 Jan-02

                                                                                                                                                                                                                                           Apr-02


                                                                                                                                                                                                                                                             Oct-02
                                                                                                                                                                                                                                                                      Jan-03
                                                                                                                                                                                                                                                                               Apr-03


                                                                                                                                                                                                                                                                                                 Oct-03
                                                                                                                                                                                                                                                                                                          Jan-04

                                                                                                                                                                                                                                                                                                                   Apr-04


                                                                                                                                                                                                                                                                                                                                     Oct-04
                                                                                                                                                                                                                                                                                                                                              Jan-05
                                                                                                                                                                                                                                                                                                                                                       Apr-05
                                                                                                                                                                                                             Jul-01




                                                                                                                                                                                                                                                    Jul-02




                                                                                                                                                                                                                                                                                        Jul-03




                                                                                                                                                                                                                                                                                                                            Jul-04
                            00


                                         00


                                                      01


                                                                   01


                                                                              02


                                                                                        02


                                                                                                  03


                                                                                                               03


                                                                                                                             04


                                                                                                                                         04


                                                                                                                                                      05
                          1Q


                                   3Q


                                                 1Q


                                                              3Q


                                                                          1Q


                                                                                    3Q


                                                                                                 1Q


                                                                                                              3Q


                                                                                                                           1Q


                                                                                                                                        3Q


                                                                                                                                                     1Q




                                   Network Carriers                           Network-Adjusted                      Low-Cost Carriers




    EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                                                                                                                            27
                                                                                                                          Airline Industry Performance Metrics

                             Figure 26: Average Short-and Long-Haul Fares
                                                                                                                                                                                                                                         Figure 27: Business Travel          Percent of All Passengers
                             3rd Quarters 2000 - 2004                                                                                                                                                                                    Using Business Fares 1Q 2000 Through 4Q 2004 (BTS Data)
                             DOT Data for 300-mile and 1000-mile Average Distances

                            $175
                                                                                                                                                                                                         $153                            25%
                                                                                                                                                                                                                                                21%
                                                                                                                                                                                                                                         20%        19%18%
                                              $177
                                                                                                                                                                                                                                                            16%
                                                                                                                                                                                                                                                               15%




                                                                                                                                                                                                                            Percentage
      Average Fare




                            $150                                                                                                                                                                                                                                  14%                  14%14%15%14%14%
                                                                                                                                                                                                                                         15%                                        13%
                                                                                                                                                                                                                                                                     12%12%13%12%12%                  12%12%12%

                                                               $117                                                                                                                                      $110
                                                                                                                                                                                                                                         10%
                            $125

                                                                                                                                                                                                                                          5%


                            $100                                                                                                                                                                                                          0%




                                                                                                                                                                                                                                                1Q 00

                                                                                                                                                                                                                                                        3Q 00

                                                                                                                                                                                                                                                                    1Q 01

                                                                                                                                                                                                                                                                                    3Q 01

                                                                                                                                                                                                                                                                                                1Q 02

                                                                                                                                                                                                                                                                                                          3Q 02

                                                                                                                                                                                                                                                                                                                     1Q 03

                                                                                                                                                                                                                                                                                                                                 3Q 03

                                                                                                                                                                                                                                                                                                                                            1Q 04

                                                                                                                                                                                                                                                                                                                                                    3Q 04
                                                     2000                              2001                               2002                                  2003                               2004

                                                                                       Short-Haul Fares                                             Long-Haul Fares




Figure 28: Passenger Load Factors                                                                                                                                                                                           Figure 29: Individual Airline Load Factors
Actual vs. Break-even Percentages 1Q 2000 Through 1Q 2005 (DOT                                                                                                                                                              Actual vs. Break-even Percentages for Quarter Ending 3/31/05
Data)                                                                                                                                                                                                                       (DOT Data)
                                                                                                                                                                         Break-even
                             100%
                                                                                                                                                                            85%
                                                                                                                                                                                                                                         100%
                              80%
                                                                                                                                                                                                                                          80%
                                                                                                                                                                                                                            Percentage
       Percentage




                              60%                                                                                                                                                                                                         60%

                                                                                                                                                                                  Actual                                                  40%
                              40%                                                                                                                                                 75%
                                                                                                                                                                                                                                          20%
                              20%
                                                                                                                                                                                                                                           0%
                                                                                                                                                                                                                                                   t




                                                                                                                                                                                                                                                                                                                             a
                                                                                                                                                                                                                                                                        s




                                                                                                                                                                                                                                                                                                     al
                                                                                                                                                                                                                                                          ta




                                                                                                                                                                                                                                                                                                                                                    st
                                                                                                                                                                                                                                                                                                                 d




                                                                                                                                                                                                                                                                                                                                         an
                                                                                                                                                                                                                                                                                        t
                                                                                                                                                                                                                                                es




                                                                                                                                                                                                                                                                                      es
                                                                                                                                                                                                                                                                     ay




                                                                                                                                                                                                                                                                                                                            k
                                                                                                                                                                                                                                                                                                               te
                                                                                                                                                                                                                                                                                                   nt




                                                                                                                                                                                                                                                                                                                                                  we
                                                                                                                                                                                                                                                        el




                               0%



                                                                                                                                                                                                                                                                                                                         as


                                                                                                                                                                                                                                                                                                                                       ic
                                                                                                                                                                                                                                               hw




                                                                                                                                                                                                                                                                                                             ni
                                                                                                                                                                                                                                                                                    W
                                                                                                                                                                                                                                                                   rw
                                                                                                                                                                                                                                                        D




                                                                                                                                                                                                                                                                                                 e




                                                                                                                                                                                                                                                                                                                                    er


                                                                                                                                                                                                                                                                                                                                                th
                                                                                                                                                                                                                                                                                                                      Al
                                                                                                                                                                                                                                                                                              tin


                                                                                                                                                                                                                                                                                                          U
                                             1Q 00


                                                            3Q 00


                                                                             1Q 01


                                                                                            3Q 01


                                                                                                              1Q 02


                                                                                                                               3Q 02


                                                                                                                                               1Q 03


                                                                                                                                                                3Q 03


                                                                                                                                                                                  1Q 04


                                                                                                                                                                                                 3Q 04


                                                                                                                                                                                                                  1Q 05




                                                                                                                                                                                                                                             ut




                                                                                                                                                                                                                                                                Ai


                                                                                                                                                                                                                                                                               a




                                                                                                                                                                                                                                                                                                                                Am


                                                                                                                                                                                                                                                                                                                                              or
                                                                                                                                                                                                                                                                                            on
                                                                                                                                                                                                                                                                               ic
                                                                                                                                                                                                                                           So




                                                                                                                                                                                                                                                                S




                                                                                                                                                                                                                                                                                                                                            N
                                                                                                                                                                                                                                                                            er


                                                                                                                                                                                                                                                                                            C
                                                                                                                                                                                                                                                            U

                                                                                                                                                                                                                                                                    Am




                                                                                        Actual                                                                     Break-even                                                                                        Actual                                             Break-even



Figure 30: Cost Per Gallon Domestic Jet
Fuel (ATA Data)
                                                                                                                                                                   April '05
                                                                                                                                                                    $1.56
                            $1.60

                            $1.40
Average Cost $ per Gallon




                            $1.20

                            $1.00

                            $0.80

                            $0.60

                            $0.40                                                          June '03
                                                                                            $0.75
                            $0.20

                            $0.00
                                    Jan-01

                                                 Apr-01


                                                                    Oct-01

                                                                              Jan-02
                                                                                       Apr-02



                                                                                                             Oct-02
                                                                                                                      Jan-03

                                                                                                                                  Apr-03


                                                                                                                                                       Oct-03

                                                                                                                                                                Jan-04
                                                                                                                                                                         Apr-04



                                                                                                                                                                                               Oct-04
                                                                                                                                                                                                         Jan-05

                                                                                                                                                                                                                   Apr-05
                                                          Jul-01




                                                                                                    Jul-02




                                                                                                                                           Jul-03




                                                                                                                                                                                      Jul-04




                     EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                                                                                                                                                               28


                                                             Airline Industry Performance Metrics

Figure 31: Debt to Investment Ratio                                                              Figure 32: Debt to Investment Ratio by Airline
Airline Debt to Investment Ratio for Major Passenger Airlines                                    Airline Debt to Investment Ratio for Quarter Ending 3/31/05
1Q 2000 Through 1Q 2005 (DOT Data)                                                               (DOT data)
                                                     1Q '05
                                                                                107%
                 120%
                                                                                                                     500%
                                                                                                                     450%                                                                                                                                                                                        403%
                 100%
                                                                                                                     400%
                              1Q '00
                                                                                                                     350%




                                                                                                  Percentage
                 80%           50%
Percentage




                                                                                                                     300%
                                                                                                                     250%
                 60%
                                                                                                                     200%                                                                                                                                                                      162%
                                                                                                                                                                                                                                                                    125%
                                                                                                                     150%                                                                                             99%                     101%
                 40%                                                                                                                                                                            80%
                                                                                                                     100%                                 58%                69%
                                                                                                                                 25%
                 20%                                                                                                 50%
                                                                                                                      0%




                                                                                                                                                           Alaska




                                                                                                                                                                                                                                                                                                   Delta
                                                                                                                                                                                                                                                                         US Airways
                                                                                                                                     Southwest




                                                                                                                                                                                                    Northwest


                                                                                                                                                                                                                            Continental
                                                                                                                                                                             America




                                                                                                                                                                                                                                                    American




                                                                                                                                                                                                                                                                                                                          United
                                                                                                                                                                              West
                  0%
                        1Q 00
                        2Q 00
                        3Q 00
                        4Q 00
                        1Q 01
                        2Q 01
                        3Q 01
                        4Q 01
                        1Q 02
                        2Q 02
                        3Q 02
                        4Q 02
                        1Q 03
                        2Q 03
                        3Q 03
                        4Q 03
                        1Q 04
                        2Q 04
                        3Q 04
                        4Q 04
                        1Q 05




Figure 33: Airport and Airway Trust Fund                                                         Figure 34: Non-Hub vs. Larger Airports
Estimated Trust Fund Receipts as of 12/04 vs. Pre-9/11 (FAA Data)                                Percent Change in Scheduled Available Seats From 1998
                                                                                                 (FAA Data)
                                                                                          17.4                                                                                                                                                                                                  Larger
                 $18                                                          16.3
                                                                                                                     20%
                                                                                                                                                                                                                                                                                                Airports
                                                                15.4
                 $16                                  14.5                                                           10%                                                                                                                                                                       July +5%
                                        13.7
                          12.9                                                         13.2
                 $14                                                     12.4
                                                                                                     Percentage




                                                             11.8                                                     0%
    $ Billions




                 $12               $9.7           $10.9
                      $9.3
                                  Actual                                                                             -10%
                 $10 Actual

                  $8                                                                                                 -20%
                                                                                                                                                                                                                                                                                       Non-Hub
                  $6                                                                                                 -30%                                                                                                                                                               Airports
                  $4                                                                                                                                                                                                                                                                   July -15%
                                                                                                                     -40%
                  $2
                                                                                                                            Jan-99
                                                                                                                                     May-99


                                                                                                                                                          Jan-00




                                                                                                                                                                                                                                                    Jan-03



                                                                                                                                                                                                                                                                                      Jan-04



                                                                                                                                                                                                                                                                                                                 Jan-05
                                                                                                                                                 Sep-99


                                                                                                                                                                    May-00
                                                                                                                                                                             Sep-00




                                                                                                                                                                                                                                           Sep-02


                                                                                                                                                                                                                                                               May-03
                                                                                                                                                                                                                                                                        Sep-03


                                                                                                                                                                                                                                                                                               May-04
                                                                                                                                                                                                                                                                                                        Sep-04


                                                                                                                                                                                                                                                                                                                             May-05
                                                                                                                                                                                      Jan-01
                                                                                                                                                                                               May-01


                                                                                                                                                                                                                   Jan-02
                                                                                                                                                                                                                                May-02
                                                                                                                                                                                                          Sep-01




                  $0
                        FY 03          FY 04       FY 05      FY 06       FY 07          FY 08

                                 December 2004                  Pre-September 11                                                                                   Non-Hub Airports                                                                              Larger Airports



Figure 35: Service From Non-Hub Airports to All                                                  Figure 36: Access to Large Airports
Hubs Percent Change in Scheduled Flights and Available Seats                                     Percent Change in Number of Scheduled Flights 7/05 vs.
7/05 vs.7/00 (FAA Data)                                                                          7/00 (FAA Data)
                  0%
                                                                                                                      15%                                                                                                                           12%
                              Large            Medium           Small                Non-Hub
                  -5%                                                                                                                                                                             8%
                                  -5%                                                                                 10%
                 -10%                                                                                                  5%
                                                                                                        Percentage
   Percentage




                 -15%                                                                                                  0%
                         -15%
                                                                                  -18%                                                              -1%
                 -20%                                                                                                 -5%
                                                                                          -22%
                 -25%                                                                                                -10%

                 -30%                          -29%
                                                                                                                     -15%
                                                                                                                                                                                                                                                                                                        -15%
                                                      -31%
                 -35%                                         -33%                                                   -20%
                                                                                                                                     Large to Large                                      Medium to                                        Small to Large                                       Non-Hub to
                                                                       -37%
                 -40%                                                                                                                                                                     Large                                                                                                  Large

                                        Flights                           Seats



       EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                                                                                                                   29


                                                   Airline Industry Performance Metrics


Figure 37: Type of Aircraft at Non-Hub Airports                                                          Figure 38: Regional Differences at Non-Hubs
Percent Change in Scheduled Flights by Type of Aircraft                                                  Percent Change in Available Seats at Non-Hub Airports 7/05 vs. 7/00
7/05 vs. 7/00 (FAA Data)                                                                                 (FAA Data)
                                                                             199%
                                                                                                                                                     Midwest
                200%
                                                                                                                                                      -21%
                                                                                                           West
                150%                                                                                        -7%                                                      Northeast
                                                                                                                                                                        -24%
Percentage




                100%

                      50%

                      0%
                                                                                                                                                                                      South
                                                            -17%
                 -50%          -29%                                                                                                                                                    -5%
                                            -39%

             -100%
                             Large Jets   Turboprop        Piston      Regional Jets
                                                                                                                                             National Average -12%



Figure 39: Essential Air Service (EAS)                                                                  Figure 40: Airline Market Share at Non-Hubs
Congressional Funding and Subsidized Communities (DOT                                                   Airline Market Share by Scheduled Available Seats at Non-Hub
Data)                                                                                                   Airports (FAA Data)
                      $140                                                     160
                                                                                                                    100%
                      $120                                                     140
                                                                                                                                                                     78%          80%         81%
                                                                                                                                 76%         77%         78%
                                                                               120
                                                                                     EAS Communities




                      $100
     Appropriations




                                                                                                                    75%
                                                                               100
       (Millions)




                       $80
                                                                                                       Percentage




                                                                         ?     80
                       $60                                                                                          50%
                                                                               60
                       $40
                                                                               40                                          22%         21%
                                                                                                                    25%                            19%         18%                      17%
                                                                                                                                                                            16%
                       $20                                                     20
                                                                                                                             2%          2%          3%          3%            3%           2%
                        $0                                                     0
                             FY 00 FY 01 FY 02 FY 03 FY 04 FY 05 FY 06*                                              0%
                                                                                                                            7//00        7/01        7/02        7/03          7/04         7/05
                                                      Appropriations
*President's proposed FY '06 budget.
                                                      Subsidized Communities                                                           Network      Low-Cost         Regionals and Others




       EXHIBIT A. Summary of Airline Industry Metrics
                                                                                                         30


EXHIBIT B. SCOPE AND METHODOLOGY

Data represented graphically in the report were collected from the following
primary sources: the Air Transport Association (ATA), the Federal Aviation
Administration (FAA), the Bureau of Transportation Statistics (BTS), and the
Office of Aviation Analysis (OAA). The ATA is a trade association of U.S.
certificated air carriers. FAA, BTS, and OAA are organizations within the
Department of Transportation. These sources were used to perform the analyses
detailed below.

We note that we did not systematically audit or validate the data contained in any
of the databases. However, we conducted trend analyses and sporadic checks of
the data to assess reasonableness and comprehensiveness. When our judgmental
sampling identified anomalies or apparent limitations in the data, we held
discussions with managers responsible for maintaining the databases to understand
and attempt to resolve the inconsistencies. Consequently, we did not perform
sufficient tests to draw conclusions or form an opinion on the completeness or
accuracy of the data sources.

We met periodically with staff from ATA, FAA, BTS, and OAA to discuss data
issues and obtain feedback on modifications we made to existing data in order to
more accurately represent industry trends. We used a definition of a regional jet
based on size, operational, and ownership criteria that differ from those used by
other industry and government entities. We sought feedback on the definition and
adjusted data sets to reflect our revised definition. In addition, we also reclassified
our set of low-cost carriers to eliminate wholly-owned operating units (“Song” by
Delta and “Ted” by United) and include America West Airlines, whose costs per
available seat mile are consistent with other low-cost carriers. In some of our
prior reports on industry conditions, we included America West Airlines as a
network carrier.

A.       Analysis Performed With ATA Data

Financial, traffic, and operational statistics obtained from ATA sources were used
in financial and statistical analysis of history, trends, status, and performance of
airline capacity, traffic, fuel expense, and unit revenues.

     1. ATA Monthly Traffic Report. A collection of current and historic airline
     traffic and capacity statistics. Scope: member airlines of the ATA, 2000
     through April 2005.15
15
     Data for “Domestic Passenger Capacity vs. Demand” (Figure 2) includes the following air carriers:
     Alaska Airlines, Aloha Airlines, America West Airlines, American Airlines, ATA (American Trans


Exhibit B. Scope and Methodology
                                                                                                       31



     2. ATA Monthly Passenger Yield Report. A collection of current and historic
     airline yield statistics (passenger revenue per revenue passenger-mile). Scope:
     selected member airlines of the ATA, 1980 through April 2005.16

     3. ATA Monthly Fuel Report. A republication of monthly airline fuel
     consumption and cost data collected and reported by BTS. Scope: all U.S.
     certificated airlines required to report fuel cost and consumption reports (DOT
     Form 41, Schedule P-12), 1986 through April 2005.17

B.       Analysis Performed With BTS Data

Financial, traffic, operational statistics, and passenger ticket survey information
obtained from BTS sources were used in financial and statistical analysis of
history, trends, status and performance of financial condition, net profits and
losses, debt and investment, load factors, and business and leisure travel
characteristics.

     1. Air Carrier Financial Statistics. A compilation of financial reports
        submitted by air carriers as required under Title 14 Code of Federal
        Regulations (CFR) Part 241 (Form 41) and accessible through the BTS
        TranStats website (http://www.transtats.bts.gov/) and through hardcopy in
        the public reference room of the Office of Airline Information. Scope: all
        certificated U.S. air carriers, 2001 through the quarter ended March 31,
        2005.

     2. Air Carrier Traffic Statistics. Compilation of traffic and capacity reports
        submitted by air carriers as required under 14 CFR Part 241 (Form 41) and
        accessible through the BTS TranStats website. Scope: all certificated
        U.S. air carriers and commuter air carriers, 2000 through March 2005.

     3. Origin and Destination Survey of Passenger Travel (O&D Survey).
        Compilation of surveyed ticket information submitted quarterly as required
        under 14 CFR Part 241 (Form 41) and accessible through the BTS
        TranStats website. Scope: 10-percent sample of tickets used by
        passengers; 1993 through the fourth quarter 2004.


     Air), Continental Airlines (including Micronesia), Delta Airlines, Hawaiian Airlines, JetBlue, Midwest
     Airlines, Northwest Airlines, Southwest Airlines, United Airlines, and US Airways.
16
     Data for “Domestic Yield for Eight Major Airlines” (Figure 25) includes the following major network
     air carriers: Alaska Airlines, American West Airlines, American Airlines, Continental Airlines, Delta
     Airlines, Northwest Airlines, United Airlines, and US Airways.
17
     Data for “Cost per Gallon Domestic Jet Fuel” (Figure 30) include all major, national, and large
     regional U.S. airlines that report to DOT.


Exhibit B. Scope and Methodology
                                                                                 32



C.      Analysis Performed With DOT-OAA Data

Financial, traffic and operational statistics obtained from DOT sources were used
in financial and statistical analysis of history, trends, status and performance of
airline revenues, expenses, profits, traffic and capacity and of the Essential Air
Service Program.

     1. Airlines Quarterly Financial Review. A quarterly report analyzing the
        financial and operating performance and condition of the major airlines in
        the U.S. Prepared using financial and traffic statistics reported to BTS by
        the airlines. Scope: 16 major air carriers (14 passenger and 2 all-cargo
        carriers), second quarter 1995 through the first quarter 2005.

     2. Essential Air Service Program (EAS).    Information on EAS budgets and
        number of communities served was supplied to the OIG by EAS program
        administrators. Scope: budget and program activity for Fiscal Years 1999
        through 2005 as well as the Administration’s budget proposal for Fiscal
        Year 2006.

     3. Domestic Airline Fares Consumer Report. Table 6 of this quarterly report
        supplies the average air fare paid by passengers traveling in distinct
        airport-pair markets with an average of 10 or more daily passengers.
        Prepared using the DOT Domestic edition of the Origin and Destination
        Survey of Passenger Travel (O&D Survey). Scope: A ten percent sample
        of tickets of passengers traveling on domestic flights within the 48 states,
        quarterly from 1999.

D.      Analysis Performed With FAA Data

Air Traffic Control (ATC) delay and operational statistics as well as airline flight
schedule data obtained from FAA sources were used in statistical analysis of
history, trends, status and performance of air traffic control management and
delays; airline scheduled capacity, operations and market share; aircraft type
usage; and the Aviation Airport and Airway Trust Fund.

     1. Flight Schedule Data System (FSDS). A database of published airline flight
        schedules. Scope: worldwide, 1995 through July 2005.

     2. Aviation System Performance Metrics (ASPM). A database of FAA air
        traffic control performance measures including delays, cancellations,
        operations, and causes for delays. Scope: 55 major airports across the



Exhibit B. Scope and Methodology
                                                                               33


      country and all enroute control centers, 1998 through May 2005 and
      preliminary data for June 2005.

   3. Operations Net (OPSNET) – Center. A database of enroute air traffic
      control center aircraft movement operations handled by the various enroute
      air traffic control centers. Scope: 22 enroute air traffic control centers,
      1990 through May 2005.

   4. Aviation Airport and Airway Trust Fund. Actual and estimated revenues
      for the trust fund were obtained by OIG staff from the FAA.
      Scope: revenue estimates prepared in April 2001 (i.e. pre-September 11,
      2001) and in December 2004; actual revenues for Fiscal Years 2003 and
      2004.

Terms and Definitions for the Current Report

Business Travel – Business travel is measured by the percent of ticket coupons in
the Origin and Destination Survey of Passenger Travel with fare codes that are
typically used in business travel compared to all ticket coupons used. Fare codes
typically used for business travel include restricted and unrestricted first and
business class travel and unrestricted coach class travel. The count of business
fare code ticket coupons in the O&D Survey are adjusted to convert restricted
“first class” fare coded ticket coupons out of the business category for carriers
with single class service.

Hub Airport – A ranking designation of U.S. airports by the FAA based on the
airport’s percentage share of total passenger enplanements at all U.S. airports.
The FAA categorizes airports based on the following criteria:

      Percentage of Annual Passenger Enplanements in the U.S. by Hub Type:

      Large Hub            1.0% or more of total enplanements
      Medium Hub           at least 0.25%, but less than 1%
      Small Hub            at least 0.05%, but less than 0.25%
      Non-hub              at least 2,500, but less than 0.05%

Large Jet – For the purposes of the airline performance report, large jets are all
commercially operated jet transport aircraft other than those defined as regional
jets.

Low-cost Carrier – For the purposes of the airline performance report, the
category low-cost carrier includes: AirTran, America West, American Trans Air
(ATA), Frontier Airlines, JetBlue Airways, National Airlines, Pan American


Exhibit B. Scope and Methodology
                                                                                  34


Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard Airlines.
However, Vanguard Airlines and National Airlines ceased operations in July 2002
and November 2002, respectively.

Major passenger airline – For the purposes of the airline performance report, the
category major passenger airline includes: Alaska Airlines, America West
Airlines, American Airlines, American Eagle Airlines, Comair, Continental
Airlines, Delta Air Lines, JetBlue, Northwest Airlines, Southwest Airlines, United
Airlines, and US Airways.

Network airline – For the purposes of the airline performance report, the category
network airline includes: Alaska Airlines, American Airlines, Continental
Airlines, Delta Air Lines, Northwest Airlines, United Airlines, and US Airways.
For the purposes of consistency over time, the financial and operating statistics for
the former Trans World Airlines have been merged with those of the acquirer
American Airlines.

Other airlines – For the purposes of the airline performance report, the category
other airlines includes: all scheduled U.S. airlines not included in the network and
low-cost categories, mostly smaller scheduled regional, commuter, and national
airlines (many of which are affiliated with the major network carriers).

Regional carrier – We define a regional carrier as an entity whose fleet is
principally comprised of aircraft configured with fewer than 100 seats, operated
within a limited geographic scope (may have multiple regions, though not
interlinked across the country under its own single brand), principally serves hub-
and-spoke networks, and conducts most of its operations under the affiliation(s) of
larger branded airlines (network carriers). For the purposes of this report, we also
consider internal mainline operating units that are principally involved in regional
operations as regional carriers.

Regional Jet (RJ) – All turbofan jet-powered aircraft configured to seat 77 or
fewer passengers, operated by either a regional or network carrier, and all turbofan
jet-powered aircraft configured to seat between 78 and 100 passengers and
operated by regional carriers.




Exhibit B. Scope and Methodology
                                                                     35




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



   Name                            Title

   Stuart A. Metzger               Program Director

   Leila D. Kahn                   Project Manager

   Ralph W. Morris                 Economist

   Stephen G. Smith                Transportation Industry Analyst

   Gina Ronzello                   Analyst




Exhibit C. Major Contributors
                                                                                          36

The following pages contain textual versions of the graphs and charts contained in this
document. These pages were not a part of the original document but have been added
here to accommodate assistive technology.

Figure I: Average Short and Long Haul Fares
Third Quarters 2000 to 2004
DOT data for 300 Mile and 1000 Mile Average Distances

     Quarter Year             Short-Haul       Long-Haul
Third Quarter 2000               $117            $177
Third Quarter 2001               $103            $155
Third Quarter 2002               $109            $158
Third Quarter 2003               $111            $158
Third Quarter 2004               $110            $153

Figure II: Actual Flight Operations, Percent Change in Air Route Traffic Control
Operations from 2000
FAA Data

            2001               2002            2003           2004           2005
           Percent            Percent         Percent        Percent        Percent
  Month
          Change in          Change in       Change in      Change in      Change in
          Operations         Operations      Operations     Operations     Operations
January       5%               -3%               0%            2%             5%
March        -4%               -8%             -10%            0%             0%
March        -2%               -7%              -7%            1%             4%
April         0%               -3%              -5%            3%             4%
May          -1%               -4%              -7%           -1%             3%
June         -3%               -4%              -6%            1%
July         1%                -1%              -2%            3%
August        0%               -4%              -6%            1%
September   -16%               -5%              -5%            0%
October      -8%               -4%              -3%            1%
November     -8%               -7%              -4%            2%
December     -5%               -1%              3%             7%

Note: September 2001 Actual Flight Operations Down 16 Percent
Note: May 2005 Actual Flight Operations Up 3 Percent
Note: All percentages are rounded
                                                                                   37




Figure III: Ten Most Delayed Airports – June 1-15, 2005

           Airport              Percent Arriving         Average Minutes of
                                 Flights Delayed         Delay for Delayed
                                                              Flights
Atlanta                               35%                        58
Newark                                33%                        67
West Palm Beach                       33%                        52
Philadelphia                          33%                        67
Louisville                            32%                        44
Miami                                 32%                        54
Fort Lauderdale                       32%                        57
Chicago – O’Hare                      31%                        64
Washington – Dulles                   30%                        61
New York - JFK                        29%                        55

Table I: Summer 2005 Airports to Watch
Delays Shown Occurred June 1 through June 15, 2005

    Rank
   Based on                                                                 Average
   Percent                                 Total     Delayed      Percent   Minutes
   Delayed              Airport           Arrivals   Arrivals     Delayed   of Delay

       1         Atlanta                    20,453       7,128      35        58

       2         Newark                      8,676       2,896      33        67

       4         Philadelphia               10,539       3,432      33        67

       7         Fort Lauderdale             4,839       1,531      32        57

       9         Washington-Dulles           9,830       2,956      30        61

      12       LaGuardia                     8,198        2,315     28        71
Note: Average time of delay for all six airports is one hour.
                                                                                 38




Figure IV: Percent Change in Scheduled Departures by Airport Size
Compared to July 2000
FAA Data

      Percent Change in Scheduled Departures Compared to July 2000
  July Year         At              At            At             At
                Large-Hub     Medium-Hub      Small-Hub      Non-Hub
                 Airports        Airports      Airports       Airports
July 2001           2%              3%            3%            -5%
July 2002          -7%             -5%           -5%           -11%
July 2003          -9%             -8%           -6%           -12%
July 2004          -3%             -4%           -1%           -17%
July 2005           0%             -2%            1%           -17%

Note: July 2005 Flights at large, medium, and small hubs are within two percent of
July 2000 levels.
Note: July 2004 Non-Hub flights down 17 percent compared to July 2000.
                                                                             39



Figure 1: Domestic Passenger Enplanements 2000-2004
(DOT Data)
               Number of
   Year       Enplanements
                (millions)
2000              698.9
2001              652.9
2002              640.9
2003              647.4
2004              698.7



Figure 2: Domestic Passenger Capacity versus Demand
Percent Change in Available Seat Miles (ASM) versus Revenue Passenger
Miles (RPM) from 2000 (ATA Data)
                  2001          2002         2003          2004           2005
                Change in     Change in    Change in     Change in      Change in
   Month
                Available     Available    Available     Available      Available
                Seat Miles    Seat Miles   Seat Miles    Seat Miles     Seat Miles
January            5%            -8%          -6%           -5%            -5%
February           -1%          -12%         -14%           -5%            -8%
March              0%            -9%         -10%           -5%            -5%
April              2%            -7%         -11%           -4%            -5%
May                3%            -6%         -12%           -5%
June               3%            -4%          -9%           -3%
July               4%            -3%          -8%           -3%
August             4%            -4%          -9%           -4%
September         -19%           -8%         -11%           -9%
October           -15%           -9%         -11%           -7%
November          -14%          -10%         -10%           -6%
December          -10%           -6%          -6%           -2%
                                                                               40

                  2001          2002          2003          2004         2005
                Change in     Change in     Change in     Change in    Change in
   Month        Revenue       Revenue       Revenue       Revenue      Revenue
                Passenger     Passenger     Passenger     Passenger    Passenger
                  Miles         Miles         Miles         Miles        Miles
January            6%            -7%           -1%           0%           8%
February           -2%          -11%          -11%          -2%           0%
March               0%           -7%          -10%          -3%           4%
April               0%          -10%          -12%           0%           1%
May                -2%           -9%          -11%          -3%
June               -1%           -8%           -9%           0%
July               1%            -6%           -4%           3%
August             4%            -4%           -5%           1%
September         -32%          -12%          -10%          -2%
October           -20%          -10%           -7%           1%
November          -17%          -14%          -10%          -2%
December          -12%           0%            0%            5%

Note: April 2005 Revenue Passenger Miles (RPM) Up 1 Percent
Note: April 2005 Available Seat Miles (ASM) Down 5 Percent
Note: All percentages are rounded

Figure 3: Actual Flight Operations
Percent Change in Air Route Traffic Control Center Operations
from 2000 (FAA Data)

            2001            2002          2003         2004         2005
           Percent         Percent       Percent      Percent      Percent
  Month
          Change in       Change in     Change in    Change in    Change in
          Operations      Operations    Operations   Operations   Operations
January       5%            -3%             0%          2%           5%
March        -4%            -8%           -10%          0%           0%
March        -2%            -7%            -7%          1%           4%
April         0%            -3%            -5%          3%           4%
May          -1%            -4%            -7%         -1%           3%
June         -3%            -4%            -6%          1%
July         1%             -1%            -2%          3%
August        0%            -4%            -6%          1%
September   -16%            -5%            -5%          0%
October      -8%            -4%            -3%          1%
                                                                       41

November         -8%          -7%           -4%              2%
December         -5%          -1%           3%               7%

Note: September 2001 Actual Flight Operations Down 16 Percent
Note: May 2005 Actual Flight Operations Up 3 Percent
Note: All percentages are rounded

Figure 4: Nine Major Airlines Reported Arrivals
Percent Change in Actual Arrivals by Airline May 2005 versus May 2000 (FAA
Data 55 major airports)

                        2005
                    Percentage
      Airline         Change
 Southwest              14%
 Alaska                  7%
 America West            3%
 Northwest              -5%
 Continental           -18%
 Delta                 -18%
 American              -24%
 US Airways            -32%
 United                -32%
Note: All percentages are rounded

Figure 5: Domestic Scheduled Capacity
Percent Change in Scheduled Flights and Available Seats at
All Airports from 2000 (FAA Data)
                        Percent      Percent
      Month            Change in    Change in
                        Flights       Seats
January 2001              2%           3%
February 2001            -3%          -2%
March 2001               -1%           1%
April 2001                1%           1%
May 2001                  0%           1%
June 2001                 0%           1%
July 2001                 1%           2%
August 2001               0%           1%
September 2001           -1%           0%
                               42

October 2001      -5%    -4%
November 2001    -15%   -15%
December 2001    -14%   -14%
January 2002     -11%   -10%
February 2002    -14%   -13%
March 2002       -11%   -10%
April 2002        -9%    -8%
May 2002          -9%    -8%
June 2002         -9%    -7%
July 2002         -7%    -6%
August 2002       -8%    -7%
September 2002   -10%   -10%
October 2002     -11%   -11%
November 2002    -12%   -12%
December 2002    -12%   -12%
January 2003     -11%   -11%
February 2003    -15%   -15%
March 2003       -12%   -12%
April 2003       -11%   -12%
May 2003         -14%   -15%
June 2003        -11%   -13%
July 2003         -9%   -11%
August 2003      -10%   -13%
September 2003   -10%   -13%
October 2003     -10%   -13%
November 2003    -11%   -13%
December 2003     -8%   -11%
January 2004      -9%   -10%
February 2004     -9%   -10%
March 2004        -9%   -10%
April 2004        -7%    -9%
May 2004          -9%   -10%
June 2004         -7%    -8%
July 2004         -5%    -7%
August 2004       -6%    -7%
September 2004    -6%    -8%
October 2004      -7%    -9%
November 2004     -6%    -8%
December 2004     -4%    -7%
                                                                               43

January 2005             -5%           -6%
February 2005            -9%           -9%
March 2005               -5%           -6%
April 2005               -4%           -5%
May 2005                 -5%           -6%
June 2005                -4%           -6%
July 2005                -3%           -4%
Note: All percentages are rounded

Figure 6: Regional Differences at All Airports
Percent Change in Available Seats at All Airports July 2005 versus July 2000
(FAA Data)
                                                            Percent Change
                         Region                               in Available
                                                                  Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,                -9%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,           -13%
Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,               -4%
Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                                  +2%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
National Average                                                  -4%
                                                                 44

Figure 7: Change in Capacity at Large Airports
Percent Change in Scheduled Flights and Available Seats at the
31 Largest Airports July 2005 versus July 2000 (FAA Data)

 Largest Airports     Percent Change        Percent Change in
                         in Flights          Available Seats
Fort Lauderdale             42%                    45%
Kennedy                     -8%                    31%
Las Vegas                   24%                    24%
Dulles                      12%                    18%
Baltimore                    3%                    14%
Charlotte                   21%                    13%
Atlanta                     18%                    13%
Tampa                       -1%                    12%
Philadelphia                17%                    12%
Orlando                      3%                    11%
Salt Lake City              41%                    11%
San Diego                    8%                     8%
Houston                     21%                     7%
Phoenix                      2%                     4%
Cincinnati                  19%                     1%
Reagan National              8%                     0%
Denver                      14%                    -1%
Minneapolis                  8%                    -2%
Detroit                      9%                    -4%
LaGuardia                    8%                    -4%
Seattle                    -15%                    -6%
Chicago O’Hare               7%                   -10%
Dallas-Ft. Worth           -12%                   -11%
Miami                      -20%                   -16%
Honolulu                    -9%                   -17%
Boston                     -19%                   -17%
Newark                      -5%                   -17%
Los Angeles                -21%                   -23%
San Francisco              -22%                   -28%
Pittsburgh                 -42%                   -48%
St. Louis                  -39%                   -58%
                                                                        45

Figure 8: Length of Domestic Flight
Percent Change in Scheduled Flights by Length of Flight
July 2005 versus July 2000 (FAA Data)

                                2005
   Range in Miles         Percent Change
                             in Flights
0 to 249 miles                 -26%
250 to 499 miles                -3%
500 to 999 miles               27%
1,000 miles or more            15%

Figure 9: Short Haul Flights by Type of Airline
Percent Change in Scheduled Flights Less Than 250 Miles by
Type of Airline July 2005 versus July 2000 (FAA Data)

                               2005
 Type of Air Carrier      Percent Change
                             by Type
Network                        -45%
Low-Cost                       -11%
Regional and Others            -24%
Figure 10: Airline Domestic Market Share
Airline Market Share by Scheduled Available Seats (FAA Data)
Carrier Type  July      July         July     July        July   July
              2000      2001         2002     2003        2004   2005
Network       62%       61%          58%      54%         51%    48%
Low-Cost      18%       20%          22%      23%         24%    25%
Regionals And 20%       20%          21%      23%         25%    27%
All Others
Note: All percentages are rounded.
                                                                                  46

Figure 11: Market Share of Low Cost Carrier Service
Airline Share of Service by Scheduled Available Seats, July 2005 (FAA Data)

                           Market Share
   Low-Cost Airline
                            Percentage
Southwest                      59%
America West                   12%
AirTran                        11%
JetBlue                        7%
American Trans Air             4%
Frontier                       4%
Spirit                         2%
Other                          1%
Note: All Percentages are rounded.

Figure 12: Share of Low-Cost Carrier Service Growth
Airline Share of Growth by Scheduled Available Seats July 2005 versus July 1998
(FAA Data)
                         Service Growth
  Low- Cost Airline
                           Percentages
Southwest                     45%
JetBlue                       19%
AirTran                       17%
Frontier                       8%
America West                   4%
Spirit                         4%
American Trans Air             2%
Other                          1%
Note: All percentages are rounded.

Figure 13: Type of Aircraft
Percent Change in Number of Domestic Scheduled Flights by Type of Aircraft
July 2005 versus July 2000 (FAA Data)
    Type of       Percent Change in
    Aircraft           Flights
Turboprop               -53%
Large Jets              -16%
Piston                  -15%
Regional Jets           220%
                                                                                47

Figure 14: Regional Jets at Large Airports
Regional Jets Share of Scheduled Flights at 31 Largest Airports July 2005 versus
July 2000 (FAA Data)

 Largest Airports         July 2000                 July 2005
                         Percentage                Percentage
                       Share of Flights          Share of Flights
Cincinnati                    57%                      78%
Dulles                        16%                      65%
Chicago O’Hare                18%                      50%
Salt Lake City                11%                      49%
Houston                       15%                      47%
Newark                        10%                      46%
St. Louis                      5%                      43%
Charlotte                      4%                      42%
Reagan National                8%                      41%
Pittsburgh                     3%                      40%
LaGuardia                     16%                      33%
Philadelphia                   6%                      33%
Detroit                        9%                      32%
Kennedy                        4%                      29%
Dallas-Ft. Worth               7%                      29%
Atlanta                        9%                      28%
Minneapolis                    6%                      27%
Boston                         7%                      26%
Denver                         6%                      25%
Phoenix                        5%                      19%
Orlando                        4%                      19%
San Francisco                  0%                      18%
Fort Lauderdale                2%                      15%
Tampa                          0%                      12%
Miami                          2%                      12%
Los Angeles                    0%                      9%
Las Vegas                      0%                      9%
San Diego                      0%                      8%
Baltimore                      1%                      7%
Seattle                        7%                      2%
Honolulu                       0%                      0%
Note: Out of the 31 large hub airports tracked by the FAA, Honolulu is the only one
without regional jet service in both years.
                                                                            48

Figure 15: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft July 2000, 2002 and 2005
(FAA Data)

                     July            July        July
 Aircraft Type
                     2000            2002        2005
Large Jets           56%             55%         49%
Regional Jets        10%             18%         32%
Non-Jet              34%             27%         19%

Note: All percentages are rounded.

Figure 16: Number of Flights With Delayed Arrivals (FAA Data)
All Airlines 55 Major Airports

                  2000       2004            2005
                 Arrival    Arrival         Arrival
  Month          Delays     Delays          Delays
January          158,982    164,810         193,526
February         152,326    143,833         151,830
March            154,507    134,957         173,810
April            154,472    123,980         125,135
May              160,781    151,277         123,959
June             200,301    178,637
July             183,866    171,222
August           195,624    161,461
September        150,585    106,489
October          167,005    142,732
November         179,700    148,235
December         235,929    205,213

Note: First Quarter 2005 versus First Quarter 2000 Down 11 Percent
Note: April-May 2005 versus April-May 2000 Down 21 Percent
                                                                   49

Figure 17: Cancellations
(FAA Data) All major airlines 55 major airports)

              2000               2004              2005
  Month   Cancellations      Cancellations     Cancellations
January      21,170             22,105            28,892
February     13,074             12,020            12,494
March        8,859               9,899            13,191
April        10,050             6,329             6,827
May          14,474             11,729            4,270
June         16,214             12,085
July         13,458             14,958
August       13,284             13,226
September    16,507             19,463
October      17,943              9,202
November     17,511              9,237
December     42,675             20,885

Note: First Quarter 2005 versus First Quarter 2000 up 27 percent
Note: May 2005 versus May 2000 down 71 percent

Figure 18: Percent of Flights Arriving Late
(FAA All major airlines 55 major airports)

  Month        2000        2004         2005
January        25%         25%          28%
February       24%         23%          24%
March          22%         19%          24%
April          23%         18%          18%
May            23%         22%          17%
June           30%         26%
July           27%         24%
August         28%         22%
September      23%         16%
October        24%         20%
November       27%         22%
December       36%         29%

Note: May 2005 17 Percent of Flights Arrived Late
Note: December 2000 36 Percent of Flights Arrived Late
                                                           50

Figure 19: Length of Arrival Delays
(FAA Data All airlines 55 major airports)
              2000              2004            2005
  Month   (In Minutes)      (In Minutes)    (In Minutes)
January        49                51              54
February       49                47              50
March          48                48              52
April          49                46              48
May            53                56              48
June           55                54
July           54                55
August         52                54
September      49                50
October        48                46
November       48                50
December       55                55
Note: May 2004 Arrivals Delayed 56 Minutes
Note: May 2005 Arrivals Delayed 48 Minutes

Figure 20: Changes in Arrival Delays by Airport
Percent Change in Arrival Delays
Year to Date May 2005 versus 2000 (FAA Data)


        Airport             Percent Change
Ft. Lauderdale                    82%
Memphis                           56%
Charlotte                         54%
Pittsburgh                       -36%
San Francisco                    -40%
Saint Louis                      -51%
                                                                    51

Figure 21: Revenues versus Expenses
Major Passenger Carriers Operating Revenues
versus Operating Expenses (DOT Data)
                         Operating Revenues    Operating Expenses
       Quarter
                             In Billions           In Billions
First Quarter 2000              $22.6                 $21.8
Second Quarter 2000             $25.4                 $22.6
Third Quarter 2000              $25.9                 $24.0
Fourth Quarter 2000             $24.2                 $24.1
First Quarter 2001              $23.3                 $24.1
Second Quarter 2001             $24.3                 $25.0
Third Quarter 2001              $21.2                 $24.4
Fourth Quarter 2001             $16.6                 $20.9
First Quarter 2002              $18.2                 $20.9
Second Quarter 2002             $20.4                 $21.9
Third Quarter 2002              $20.2                 $22.6
Fourth Quarter 2002             $18.8                 $21.7
First Quarter 2003              $19.2                 $22.2
Second Quarter 2003             $20.3                 $21.0
Third Quarter 2003              $21.9                 $21.3
Fourth Quarter 2003             $21.0                 $21.7
First Quarter 2004              $22.0                 $23.0
Second Quarter 2004             $23.7                 $23.3
Third Quarter 2004              $23.9                 $24.3
Fourth Quarter 2004             $22.8                 $25.5
First Quarter 2005              $23.9                 $25.4
Note: First Quarter 2005 Operating Revenues Were $23.9 Billion
Note: First Quarter 2005 Operating Expenses Were $25.4 Billion
Note: Numbers are rounded

Figure 22: Selected Network and Low Cost Airlines
Operating Profit or Loss
System Operations for Quarter Ending March 31 2005 (DOT Data)

                         Profit or Loss
        Airline
                         (In Millions)
Southwest                    $106
America West                  $51
JetBlue                       $26
                                                                              52

Frontier                         -$3
Spirit                           -$5
Air Tran                         -$9
American                        -$44
Alaska                          -$71
US Airways                     -$182
Continental                    -$189
United                         -$235
Northwest                      -$287
American Trans Air             -$359
Delta                          -$439

Figure 23: Accumulated Net Losses and Gains
First Quarter 2001 Cumulatively through First Quarter 2005
(DOT Data)

Quarter Year          Network Carriers      Low-Cost Carriers
                       Cumulative Sum        Cumulative Sum
                      Dollars in Millions   Dollars in Millions
First Quarter 2001          -$1,019                 $99
Second Quarter 2001         -$1,811                $239
Third Quarter 2001          -$4,223                $344
Fourth Quarter 2001         -$7,422                $157
First Quarter 2002         -$10,408               -$177
Second Quarter 2002        -$11,927               -$179
Third Quarter 2002         -$14,473               -$228
Fourth Quarter 2002        -$18,485               -$295
First Quarter 2003         -$20,373               -$337
Second Quarter 2003        -$20,675                $153
Third Quarter 2003         -$21,177                $345
Fourth Quarter 2003        -$21,758                $418
First Quarter 2004         -$23,427                $398
Second Quarter 2004        -$25,806                $516
Third Quarter 2004         -$27,211                $535
Fourth Quarter 2004        -$29,655                -$61
First Quarter 2005         -$32,836               -$315

Note: First Quarter 2005 - Since the first quarter of 2001 Network Carriers Have
Accumulated Net Losses of 33 billion Dollars
Note: First Quarter 2005 - Since the first quarter of 2001 Low-Cost Carriers Have
Accumulated 315 million Dollars in Net Losses
Note: Numbers are rounded
                                                                                   53

  Figure 24: Cost Per Available Seat-Mile (CASM)
  First Quarter 2000 Through First Quarter 2005 DOT Domestic Data
  Quarter Year           Network       Network Carriers       Low-Cost
                         Carriers     Without Accounting      Carriers
                                            Change
  First Quarter 2000    10.8 cents   10.3 cents              7.8 cents
  Second Quarter 2000   10.8 cents   10.4 cents              7.8 cents
  Third Quarter 2000    11 cents     10.6 cents              8.0 cents
  Fourth Quarter 2000   11.7 cents   11.1 cents              8.3 cents
  First Quarter 2001    11.9 cents   11.4 cents              8.0 cents
  Second Quarter 2001   11.8 cents   11.2 cents              8.1 cents
  Third Quarter 2001    12.3 cents   11.7 cents              7.8 cents
  Fourth Quarter 2001   12.3 cents   11.7 cents              8.3 cents
  First Quarter 2002    11.9 cents   11.2 cents              7.6 cents
  Second Quarter 2002   11.5 cents   10.9 cents              7.7 cents
  Third Quarter 2002    11.3 cents   10.7 cents              7.4 cents
  Fourth Quarter 2002   11.8 cents   11.1 cents              7.5 cents
  First Quarter 2003    12.8 cents   11.5 cents              7.6 cents
  Second Quarter 2003   12.2 cents   10.8 cents              7.5 cents
  Third Quarter 2003    11.7 cents   10.2 cents              7.3 cents
  Fourth Quarter 2003   12.3 cents   10.7 cents              7.5 cents
  First Quarter 2004    12.6 cents   10.7 cents              7.6 cents
  Second Quarter 2004   12.4 cents   10.4 cents              7.9 cents
  Third Quarter 2004    12.6 cents   10.4 cents              7.7 cents
  Fourth Quarter 2004   13.7 cents   10.9 cents              8.7 cents
  First Quarter 2005    13.5 cents   11.0 cents              8.8 cents

  Note: First Quarter 2000 Network Carrier Cost Per Available Seat-Mile 10.8 cents
  Note: First Quarter 2005 Network Carrier Cost Per Available Seat-Mile 13.5 cents
  Note: First Quarter 2000 Low-Cost Carrier Cost Per Available Seat-Mile 7.8 cents
  Note: First Quarter 2005 Low-Cost Carrier Cost Per Available Seat-Mile 8.8 cents
  Note: Numbers are rounded

  Figure 25: Domestic Yield for Eight Major Airlines
  Percent Change in Airline Yield from 2000 (ATA Data)
         2001              2002            2003               2004           2005
Month % Change in       % Change in     % Change in        % Change in   % Change in
         Yield             Yield           Yield              Yield         Yield
Jan       4%               -13%            -16%               -15%          -22%
Feb       0%               -14%            -18%               -18%          -24%
Mar      -3%               -16%            -19%               -17%          -21%
Apr      -3%               -14%            -19%               -18%          -20%
                                                                                 54

May           -7%            -16%           -20%           -21%
June          -9%            -18%           -19%           -21%
July         -10%            -18%           -16%           -18%
Aug          -13%            -21%           -17%           -22%
Sept         -18%            -17%           -16%           -26%
Oct          -19%            -18%           -18%           -27%
Nov          -16%            -20%           -18%           -22%
Dec          -15%            -16%           -14%           -21%

   Note: April 2005 Yield Down 20 Percent

   Figure 26: Average Short-and Long-Haul Fares 3 Quarters 2000 – 2004
   DOT Data for 300-mile and 1000-mile Average Distances

   Third        Short Haul   Long Haul
   Quarter         Fare        Fare
   2000            $117        $177
   2001            $103        $155
   2002            $109        $158
   2003            $111        $158
   2004            $110        $153


   Figure 27: Business Travel
   Passengers Using Business Fares as a Percent of All Passengers First Quarter 2000
   through Fourth Quarter 2004 (BTS Data)
                             Percent of Passengers Using
             Quarter
                                   Business Fares
   First Quarter 2000                    21%
   Second Quarter 2000                   19%
   Third Quarter 2000                    18%
   Fourth Quarter 2000                   16%
   First Quarter 2001                    15%
   Second Quarter 2001                   14%
   Third Quarter 2001                    12%
   Fourth Quarter 2001                   12%
   First Quarter 2002                    13%
   Second Quarter 2002                   12%
   Third Quarter 2002                    12%
   Fourth Quarter 2002                   13%
                                                            55

First Quarter 2003                 14%
Second Quarter 2003                14%
Third Quarter 2003                 15%
Fourth Quarter 2003                14%
First Quarter 2004                 14%
Second Quarter 2004                12%
Third Quarter 2004                 12%
Fourth Quarter 2004                12%

Figure 28: Passenger Load Factors
Actual versus Breakeven Percentages (DOT Data)

                          Actual        Breakeven
       Quarter          Load Factor    Load Factor
First Quarter 2000         69%            68%
Second Quarter 2000        76%            67%
Third Quarter 2000         76%            71%
Fourth Quarter 2000        70%            72%
First Quarter 2001         68%            74%
Second Quarter 2001        74%            76%
Third Quarter 2001         72%            88%
Fourth Quarter 2001        66%            90%
First Quarter 2002         70%            85%
Second Quarter 2002        74%            83%
Third Quarter 2002         74%            87%
Fourth Quarter 2002        71%            86%
First Quarter 2003         69%            84%
Second Quarter 2003        75%            79%
Third Quarter 2003         78%            75%
Fourth Quarter 2003        73%            77%
First Quarter 2004         72%            75%
Second Quarter 2004        78%            77%
Third Quarter 2004         79%            83%
Fourth Quarter 2004        75%            89%
First Quarter 2005         75%            85%

Note: First Quarter 2005 Actual Load Factor 75 Percent
Note: First Quarter 2005 Breakeven Load Factor 85 Percent
                                                                             56

Figure 29: Individual Airline Load Factors
Actual versus Breakeven Percentages for Quarter Ending March 31 2005
(DOT Data)

                          Actual        Breakeven
       Airline          Load Factor    Load Factor
Southwest                  65%             60%
Delta                      76%             89%
America West               78%            73%
American                   75%             80%
Continental                78%            106%
Northwest                  80%             94%
United                     78%             87%
US Airways                 73%             84%
Alaska                     73%             91%


Figure 30: Jet Fuel Cost Per Gallon (ATA Data Domestic Fuel Costs)
                 2001           2002          2003            2004           2005
  Month
             Average Cost Average Cost     Average Cost    Average Cost   Average Cost
January          $0.86          $0.60         $0.84           $0.95          $1.27
February         $0.85          $0.62         $0.88           $0.97          $1.33
March            $0.80          $0.62         $1.05           $0.97          $1.45
April            $0.77          $0.69         $0.83           $1.00          $1.56
May              $0.78          $0.70         $0.76           $1.08
June             $0.81          $0.67         $0.75           $1.07
July             $0.77          $0.71         $0.78           $1.09
August           $0.77          $0.72         $0.83           $1.16
September        $0.79          $0.77         $0.80           $1.24
October          $0.71          $0.81         $0.82           $1.38
November         $0.66          $0.77         $0.84           $1.37
December         $0.57          $0.76         $0.88           $1.27
Note: April 2005 Jet Fuel Cost Was $1.56
Note: June 2003 Jet Fuel Cost Was $0.75
Note: Numbers are rounded
                                                                     57

Figure 31: Debt to Investment Ratio
Airline Debt to Investment Ratio for All Major Airlines (DOT Data)

                             Ratio
        Quarter
                          (Percentage)
First Quarter 2000           50%
Second Quarter 2000          48%
Third Quarter 2000           48%
Fourth Quarter 2000          53%
First Quarter 2001           54%
Second Quarter 2001          54%
Third Quarter 2001           60%
Fourth Quarter 2001          66%
First Quarter 2002           68%
Second Quarter 2002          70%
Third Quarter 2002           73%
Fourth Quarter 2002          87%
First Quarter 2003           88%
Second Quarter 2003          90%
Third Quarter 2003           91%
Fourth Quarter 2003          91%
First Quarter 2004           89%
Second Quarter 2004          96%
Third Quarter 2004           98%
Fourth Quarter 2004          104%
First Quarter 2005           107%
Note: First Quarter 2000 Debt to Investment Ratio was 50%
Note: First Quarter 2005 Debt to Investment Ratio was 107%
Note: Numbers are rounded

Figure 32: Debt to Investment Ratio by Airline
Airline Debt to Investment Ratio for Quarter Ending March 31, 2005
(DOT Data)

                     Ratio
    Airlines
                  (Percentage)
Southwest             25%
Alaska                58%
                                                                   58

America West         69%
Northwest            80%
Continental          99%
American             101%
US Airways           125%
Delta                162%
United               403%

Figure 33: Airport and Airway Trust Fund
Estimated Trust Fund Receipts of June 2005
versus Pre-September 11, 2001 (FAA Data)

                  June 2005       Pre-September 11
Fiscal Year
                 (In Billions)       (In Billions)
    2003             $9.3                $12.9
    2004             $9.7                $13.7
    2005             $10.9               $14.5
    2006             $11.8               $15.4
    2007             $12.4               $16.3
    2008             $13.2               $17.4


Figure 34: Non-Hub versus Larger Airports
Percent Change in Scheduled Available Seats from 1998 (FAA Data)


                  Non-Hub Larger
     Month
                  Airports Airports

January 1999         -2%         5%
February 1999         0%         6%
March 1999           0%          7%
April 1999            0%         7%
May 1999              0%         9%
June 1999            -1%         8%
July 1999            -2%         7%
August 1999           0%         8%
September 1999        0%         7%
October 1999          0%         8%
November 1999         3%         8%
December 1999         2%         7%
                              59

January 2000      -2%   10%
February 2000      4%   15%
March 2000         0%   12%
April 2000        -2%   12%
May 2000           1%   14%
June 2000         -2%   11%
July 2000         -3%    9%
August 2000       -3%   11%
September 2000    -3%    9%
October 2000      -1%   12%
November 2000      0%   11%
December 2000     -4%   10%
January 2001      -4%   14%
February 2001     -5%   13%
March 2001        -6%   13%
April 2001        -7%   14%
May 2001          -5%   15%
June 2001         -8%   12%
July 2001         -8%   12%
August 2001       -8%   13%
September 2001   -10%   10%
October 2001     -10%    8%
November 2001    -18%   -5%
December 2001    -19%   -6%
January 2002     -17%    0%
February 2002    -17%    0%
March 2002       -17%    1%
April 2002       -15%    3%
May 2002         -14%    4%
June 2002        -16%    3%
July 2002        -15%    4%
August 2002      -13%    3%
September 2002   -18%   -1%
October 2002     -18%    0%
November 2002    -18%   -2%
December 2002    -19%   -4%
January 2003     -21%   -1%
February 2003    -19%   -1%
March 2003       -19%   -1%
April 2003       -20%   -1%
May 2003         -20%   -4%
                                                                          60

June 2003          -19%       -3%
July 2003          -18%       -2%
August 2003        -17%       -3%
September 2003     -19%       -5%
October 2003       -18%       -3%
November 2003      -19%       -3%
December 2003      -17%       -3%
January 2004       -20%        0%
February 2004      -17%        5%
March 2004         -20%       2%
April 2004         -22%        2%
May 2004           -18%        3%
June 2004          -18%       2%
July 2004          -17%        3%
August 2004        -16%        3%
September 2004     -19%        1%
October 2004       -18%        2%
November 2004      -16%        3%
December 2004      -16%       3%
January 2005       -18%        5%
February 2005      -17%        5%
March 2005         -16%       7%
April 2005         -17%        6%
May 2005           -16%        7%
June 2005          -15%       5%
July 2005          -15%        5%

Note: July 2005 Larger Airports Up 5 Percent
Note: July 2005 Non-Hub Airports Down 15 Percent

Figure 35: Service From Non-Hub Airports to All Hubs
Percent Change in Scheduled Flights and Available Seats July 2005 versus July
2000 (FAA Data)

From Non-Hub to           Flights      Seats
Large                         -15%              -5%
Medium                        -29%             -31%
Small                         -33%             -37%
Non-Hub                       -18%             -22%
                                                                               61

Figure 36: Access to Large Airports
Percent Change in Number of Scheduled Flights July 2005 versus July 2000
(FAA Data)

                                          Percent Change
            Hub Access                       In Flights
Large to Large                                  -1%
Medium to Large                                  8%
Small to Large                                  12%
Non-Hub to Large                               -15%

Figure 37: Type of Aircraft at Non-Hub Airports
Percent Change in Scheduled Flights by Type of Aircraft
July 2005 versus July 2000 (FAA Data)

Aircraft Type            Percent Change
Large Jets                    -29%
Turboprop                     -39%
Piston                        -17%
Regional Jets                199%

Figure 38: Regional Differences at Non-Hubs
Percent Change in Available Seats at Non-Hub Airports
July 2005 versus July 2000 (FAA Data)

                                                           Percent Change in
                         Region
                                                            Available Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,              -24%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,          -21%
Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                                 -5%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,              -7%
Utah, Washington, Wyoming)
National Average                                                 -12%
                                                                               62

Figure 39: Essential Air Service
Congressional Funding and Subsidized Communities (DOT Data)

                                                            Number of
                                     Appropriations
            Fiscal Year                                    Communities
                                      In Millions
                                                            Subsidized
1999                                       $50                 100
2000                                       $50                 106
2001                                       $50                 115
2002                                      $113                 123
2003                                      $102                 125
2004                                      $102                 138
2005                                      $102                 151
President’s proposed 2006 budget           $50                 90


Figure 40: Airline Market Share at Non-Hubs
Airline Market Share by Scheduled Available Seats at Non-Hub Airports
(FAA Data)

                   July      July      July       July      July        July
Airline Market
                   2000      2001      2002       2003      2004        2005
Network            22%       21%       19%        18%       17%         17%
Low-Cost           2%        2%        3%          3%        3%          2%
 Regionals and               77%       78%        79%       80%         81%
                   76%
  all Others
Note: All Percentages are rounded.
